No. 19In THE

Supreme Court of tljr United Staten
KANEKA CORPORATION,
Petitioner,
v.
XIAMEN KINGDOMWAY GROUP COMPANY,
PACIFIC RAINBOW INTERNATIONAL INC.,
Respondent.
On Petition for Writ of Certiorari to the United
States Court of Appeals for the Federal Circuit

SUPPLEMENTAL APPENDIX

Keith D. Nowak
Counsel of Record
William F. Sondericker
Gerald W. Griffin
Carter Ledyard & Milburn LLP
Two Wall Street
New York, New York 10005
(212) 732-3200
nowak@clm.com
Counsel for Petitioner

fV/ED
291472

$
COUNSEL PRESS

(800)274-3321 • (800)359-6859

mlVSS&

I

TABLE OF CONTENTS
Page
U.S. PATENT NO. 7,910,340 (’340 PATENT), WITH ATTACHED
CERTIFICATE OF CORRECTION............................................ SA1
USPTO RESTRICTION REQUIREMENT & APPLICANT
ELECTION IN RESPONSE TO RESTRICTION
REQUIREMENT........................................................................ SA20

The Director of the United States
Patent and Trademark Office

Qitiited

States

Has received an applicationfor a patentfor
a new and useful invention. The title and
description of the invention, are enclosed.
The requirements of law have been com­
plied with, and it has been determined that
a patent on the invention shall be granted
under the law.
Therefore, this

United States Patent
Grants to the person(s) having title to this
patent the right to exclude othersfrom mak­
ing, using, offering for sale, or selling the
invention throughout the United States of
America or importing the invention into the
United States ofAmerica, and if the invenr
tion is a process, ofthe right to exclude oth­
ers from using, offering for sale or selling
throughout the United States ofAmerica, or
importing into the United States of
America, products made by that process,
for the term setforth in 35 U.S.C. 154(a)(2)
or (c)(1), subject to the payment of mainte­
nance fees as provided by 35 U.S.C. 41(b),
See the Maintenance Fee Notice on the
inside of the Cover.

Director ofthe United States Patent and Trademark Office

i!
I.
(■

1 of I9

SA1
KAN-CDCAL-240405

US007910340B2

(i2) United States Patent

(10) Patent No.:
US 7,910,340 B2
(45) Date of Patent:
Mar. 22,2011

Yajima etal.
(54) PROCESSES FOR PRODUCING COENZYME
Q10
(75)

Inventors: Kazuyoshi Yajima, Hyogo (IP);
Takahisa Kato. Hyogo (JP); Akihisa
Kanda, Osaka (JP); Shiro Kitaraura,
Hyogo (JP); Yasuyoshi Ucda, Hyogo

(JP)

■TP

JP

IP
JP
JP
JP

JP
JP
JP

(73)

Assignee: Kaneka Corporation, Osaka-shi (JP)

JP
JP
JP
IP

(*)

Notice:

JP

Subject to any disclaimer, the lerm of this
patent is extended or adjusted under-35
U.S.C. 154(b) by 588 days.

JP
JP

WO

(21) Appi. No.: 11/981,181
(22) Filed:

Prior Publication Data
US 2008/0171373 Al

Jul. 17, 2008

Related U.S. Application Data
(62)

Division of application No. JO/500,249,. filed as
application No. PCT/JP02/13766 on Dec. 27, 2002.
now abandoned.

(30)

Foreign Application Priority Data

Dec. 27, 2001
(51)

(52)
(58)

1/1980
1/1980
2/1980
5/1980
11/1980
5/1981
11/1981
li/1981
2/19S2
5/1982
4/1985
4/1985
3/1998
4/1998
12/1998
3/2001
6/1996

i

OTHER PUBLICATIONS

Oct. 31,2007

(65)

55-27 A
55-28 A
55-21756 A
55-68295 A
55-148084 A
56-55196 A
56-154994 A
56-154996 A
57-33599 A
57-70834 A
60-75294:
■60-75294 A
10-57072 A
10-109933 A
10-330251 A
2001-61478
WO 96/17626

(JP.)

2001-398545

Int. Cl.

cup mo

(2006.01)
CI2P 7/66
(2006,01)
U.S.CI........ ,........
435/133: 435/41
Field of Classification Search .... ................. None
See application file for complete search history.

Tnkada etal. Brochimicaet Biophysics Acla. 1982,679:308-314 *
Yoshida el al.“Production of ubiquinone-10 using bacteria". Journal
of General and Applied Microbiology. 1998, 44:19-26.*
Disch, Andrea ei al.. “On the Absence of the Giyceraldehyde 3-Phosphate/Pynivate. Pathway for Isoprenoid Biosynthesis in Fungi and
Yeasts,’’ FKMS Microbiology Ixrters, vol. 168, No. 2. 1998; pr>
201-208.
Kockovn-Kratochvilova, A. et al., “Die Beziehungen innerhnlb der
Gattung Cryptococcus (Sanfclice) Vuilicmin”, Zbi Bah. Abt. II, Bd.,
vol. 131,No. 7,1976. pp.610-,631.
Natori, Y, et al., “Production of Coenzyme Q10 by Pseudomonas
N842”. Agrtc. Biol.Chem., vol. 42, No. 9. 1978,pp. 1799-1800.
Natori, Y. et al., “Enhancement of Coenzyme. Q,0 Accumulation by
Mutation and Effects of Medium Components on the Formation of
Coenzyme Q Homoiogs by Pseudomonas X842 and Mutants’’.
Agric. Biol. Chem.. vol. 45, No. 10.1981, pp. 2175-2182.
Ohla. H. et at., "Agromonas oligotmphicM gen. nov.. sp. nov., a
Nitrogen-Fixing Otigotrophic Bacterium", Antonie van
Leeuwenhoek. Vol. 49, Nos, 4-5, 1983, pp, 429-446.
Sakato, K. et al., ‘‘Agitation-Aeration Studies'on Coenzyme Ql0
Production Using Rhodopseudonionns spheroides,” Biotechnology
and Applied Biochemistry, vol. 16, No. lv 1992, pp. 19-28.
(Continued)

(56)

References Cited

U.S. PATENT DOCUMENTS
3.769,170 A * 10/1973 Rondo etal.
4.220,719 A
9/1980 Aida etal.
6.156.802 A
12/2000 Mae etal.

435/133

EP
EP
EP
EP
EP
EP
EP
EP
EP
EP
EP
EP
F.P
EPEP
EP
GB
JP
JP
JP

236 552
0 051 921
0073 134
0 956 854
1 123 979
1 336 657
1 354 957
1 386 905
1 391 515
1 408 024
1415 969
1415 970
1415 971
I 415 972
1 415 9 73
1440 962
1452 174
930752
48-8836
54-110388
54-119090

Al
Al
A2
Al
Al
Al
Al
Al
Al
Al
Al
Al
Al
Al
Al
Al
Al
B
A
A

11/1986
5/1982
3*1983
11/1999
8/2001
8/2003
10/2003
2/2004
2/2004
4/2004
5/2004
5/2004
52004
5*2004
5/2004,
7/2004
9/2004
7/1963
3*1973
8*1979
9*1979

Hatton.

Daniels & Adrian, LLP
(57)

FOREIGN PATENT DOCUMENTS

DE

Primary Examiner — Vera Afremova.
(74) Attorney, Agent, or Firm — Westerman.

ABSTRACT

The present invention relates to a process for producing
reduced coenzyme Q,0 which comprises obtaining microbial
cells containing reduced coenzyme Qlb at a ratio of not less
Ilian 70 mole % among the entire coenzymes Q1q, optionally
disrupting the cells and recovering thus-produced reduced
.coenzyme Qj 0. The present invention also relates to a process
for producing oxidized coenzyme Q10 which comprises
either recovering oxidized coenzyme Q10 after oxidizing the
above-mentioned microbial cells or disrupted product
thereof, orrecovering reduced coenzyme Q, n fronrthe abovementioned microbial ceils or disrupted product thereof to
oxidize thus-obtained reduced coenzyme
thereafter.
According to Ibe-processes of the present invention, reduced
coenzyme Q10 and oxidized coenzyme Ql0 can be produced
simply on (lie industrial scale.
45 Claims, 1 Drawing Sheet

2 of 19

SA2

KAN-CDCAL-240406

US 7,910.340 B2
Page 2
OTHER PUBLICATIONS
Urakami X, el al., “Production of Isopnenoid Compounds in the
Facultative Mcfhylbiroph PmfoniOnds extroqucm". ,1 Ferme/it.
Teehnoi, vol. 66, No. 3, 1988, pp. 325-332:
Urakami,. T. ei ai.,. “Production pi! Ubiquinone and
Bacteriochiorophyll <x by Rhodobaair sphaeivhles and
Bhodobacter su/fidopiuim->', Journal of Fermentation a/td
Bioengineering, vol. 76. No. 3, 1993. pp. 191-194.
Urakami, T.. et al., “Transfer oFPseudomotias amhiovbrans (den
Dooren de Jong 1926) to Aminobactcr gen; nov. as Aminobactcr
andnovorans comb. nov. and Description otAminobactcr aganoensis
sp. nov. and Aminobactcr niigataensis sp. nov,”. International Jour­
nal ofSystematic Bacteriology, vol. 42, No. 1, Jan. 1992, pp. 84-92.
Vcntiiroli el al., Blochlmica eiBipfjhj’stca Acta, 935 (198$) pp. 258272.'."
Wakabayashi et al.t Biol. Pharni Bull, 1994, I 7(8):9?7-1002.

Waknb, N. et aL “'Acidiphilium mutih'ormsp. nov., an Acidophilic
Cbemoorganolrophic Bacterium from Pyritic Acid Mine Drainage”,
Journal of GcncralandAppliedMtaobiohgy, vol, 40. No. 2, J 994,
pp: J43-159.
Yabuuchi. E.. et ai.. "Proposals of Sphingomonaspancimobllis gen.
nov, and conib, now, Sphingpmonas parapaucimobilis sp. nov„
Sphlngompnasyanoikkiyac sp. nov., Sphlngomonas adhaeslva sp.
nov.. Sphlngomonas capsulata comb, nov., and Two Gcnospccies of
die Genus Sphingomonas,” Microbiology mid lmnntnolog)\ vol. 34,
No. 2'. 1990, pp. 99-119.
Yamada, Y. et al.;, “The Coenzyme Q System in Strains of
Tricbosporoti Species and Related Organisms”, Journal of General
andAppliedMicrobiology*, vol. 28, No. 4, J9S2, pp. 355-35$.
Yoshida. H. ct a).- "Production of Ubiqiunone^O-Using Bacteria”,
JournalpfGeneral andAppliedMicrobiolog}', vol. 44. No. 1, ,1'998.
pp. 19-26.
* cited by examiner

3 of 19

SA3

KAN-CDCAL-240407

a

FIG.!

SOLVENT/"

JsOlVENT

IsQlVENT^
RECOVERY^.
FIRST
SEPARATION
>
TANK

■>

A

SECOND
SEPARATION
TANK

r*

m

\

c+

THIRD
SERRATION
TANK

ft

a
residue

RESIDUE

recovery

-5»»

RESIDUE
♦
GO

>
4^

CE11-DISRUTED

SOLUTION

11

f<r

rtf-

A

V:U

T_y

£Ti

1
V

o

4

-ISOPROPANOL
n-hexane

§
N
K)

•O

FIRST
STIRRING
TANK

%%

SECOND
STIRRING
TANK,

El

SECOND
STIRRING
TANK

£

05

z■
o

l4
VO

■G

O
O
>

I"
I

NJ

o
A
o
00

o

J

OJ
ji.

®
■W
Ki

Ai

O
(0

US 7,910.340 B2
1

2

PROCESSES FOR PRODUCING COENZYME
Q10

in addition lo pharmaceutical products as a pharmaceutically
and physiologically effective substance for a variety of dis­
eases.
On the other hand, reduced coenzyme Q10 has not so much
RELATED APPLICATIONS
5 drawn attention so far: however, in these years, there has been
reported that reduced coenzyme Q10 is more effective in vari This application si a divisional ofSer. No. 10/500.249,filed
ous applications than oxidized coenzyme Q10.
on Nov. 3. 2004 and now abandoned, which is a 371 pf
For example, Japanese Kokai Publication llei-10-330251
PCT/JP02/13766, filed on Dec. 27. 2002. which claims ben­
efits to Japanese Application No. 2001-398545. filed on Dec.
discloses an antihypercholesterolemia agent having excellent
27 2001
10 cholesterol reducing ninction. an antihyperlipemia agent, and
an agent for curing and preventing arteriosclerosis which
contain reduced cocnzyme Q10 as an active ingredient. In
TECHNICAL FIELD
addition. Japanese Kokai Publication Hei-10-109933 dis­
closes a pharmaceutical composition excellent in ofal-absorbThe present invention relates to
15 ability comprising coenzyme Q10 including reduced coen­
a process for producing the reduced coenzyme Q10 repre­
zyme QJ0 as an active ingredient.
sented by the following formula 0):
Furthermore, reduced coenzvme QJ0 is effective as an anti oxidant and a radical scavenger. R, Stocker, et al. have
reported that reduced coenzyme Qi0 prevented peroxidation
20. of human LDL more efficiently than a-tocopherol, lycopene
and (3-carotene (Proceedings of the National Academy of
Science of the United States of America, vol. 88, pp. 16461650,1991).
Ithus been known thatoxidized coenzymeQ|0andreduced
25 coenzyme Q10 are in a certain type of equilibrium in a living
body and that oxidized Cocnzyme Q, (/reduced coenzyme Q,0
absorbed in the living body are mutually reduced/oxidized.
Reduced cocnzyme Q10 is supposedly produced by a
and a process for producing the oxidized coenzyme Q, „ repchemical synthesis method, similarly to the process for proresented by the following formula (II):
30 ducing oxidized coenzyme Q10. But the synthesis process is
supposed to be complicated, risky and costly. Moreover, in
the case ofchemical synthesis methods, it will be necessary to
(») minimize the subgeneration and contamination of a (Z)-isomer, which is suspiciously unsafe (Biomedical and Clinical
35 Aspects of Cocnzyme Q, vol. 3. pp. 19-30, 1981). Europe
Pharmacopoeia regulates that a content of (Z)-isomer in oxi­
dized coenzyme Q10 must be not more than 0.1 %.
As another process for producing reduced coenzyme Q10,
it can be supposed a method of utilizing microbial cells, that
40 is, a method for separating and recovering reduced coenzyme
Q10 from reduced coenzyme Q10-producing microotganisms.
However, the reduced coenzyme Q,q produced by the micro­
More particularly, the present invention relates to
bial cells of the above-mentioned microorganisms contains a
a process for producing reduced coenzyme QJ0
large amount of oxidized coenzyme Ql0. and the separation
which comprises culmring reduced coenzyme Q10-producing microorganisms to obtain microbial cells containing 45 and recovery of reduced coenzyme Q10 by a conventional
meihod results in high cost.
reduced coenzyme Q10 at a ratio of not less than 70 mole %
The following are documents describing the presence of
among the entire cocnzytncs Q10,
reduced coenzyme QI0 in microbial cells and there have been
optionally disrupting the microbial cells and recovering’
known the following examples of bacteria.
thus-produced reduced coenzyme QJ0.
50 (1) -An example describing that at lowest 5 to 10% by weight
The present invention also relates lo a process for produc­
and at highest 30 to 60% by weight ofreduced coenzyme Ql0
ing oxidized coenzyme QJ0 which comprises either recover­
are present among the entire coenzymes Q10 in culture cells of
ing oxidized coenzyme Ql0 after Oxidizing the above-men­
photosynthesis bacteria (Japanese Kokai Publication Sho-57tioned microbial cells or disrupted product thereof, or
70834).
recovering reduced coenzyme Q,n from the above-mentioned 55 (2) An example describing that the genus Pseudomonas is
microbial cells or disrupted product thereof to oxidize thussubjected to thermal extraction by an organic solvent in the
obtained reduced coenzyme Q10 thereafter.
presence of sodium hydroxide and pyrogallol, and the result­
ant is treated with 5% sodium hydrosulfitc solution, and fitrBACKGROUND ART
tlier dehydrated and concentrated to collect an acetone60 soluble portion, and an oil containing reduced coenzyme Q10
The reduced coenzyme Q10 (I) and the oxidized cocnzyme
is obtained (Japanese Kokai Publication Sho-60-75294).
Q10 (11) are mitochondrial electron transport systeui-constiBothoftiieabove(l)and(2)aimtoconvertamixtureoftlic
tuting factors in cells pf a living body ofhuman and deal with
obtained reduced coenzyme<3]0 and oxidized coenzyme Q10
ATP production by working as electron carriers in oxidative
or the obtained reduced coenzyme Q10 into oxidized coenphosphoriznlion reactions.
65 zytne Q10by further oxidation. 'ITtus, reduced coenzyme Q10
Conventionally, oxidized coenzyme QI0 has been widely
is only described as an intermediate substance in producing
used for supplementary nutrient foods and cosmetic products
oxidized coenzyme Q10.

5 of 19

SA5
KAN-CDCAL-240409

US 7,910,340 B2
3

4

In the above (1), photosynthesis bacteria arc used the
Furthermore, the present invention also relates to
cul ttre of wluch is complicated. Furthermore, in the microa process forproducing the oxidized coenzyme Q,0 reprcbial cells ot the above-mentioned microorganisms, when die
sented by the following formula (II):
production of reduced coenzyme Q,0 is aimed at, it cannot be
said that the ratio of reduced coenzyme Q,„ among the entire 5
coenzymes Q,0 is sufficient.
(H)
The above (2) comprises a process ofconverting oxidized
coenzyme Q10 contained in a hexane phase into reduced
coenzyme Q10 by sodium hydrosulfite, a reducing agent (see
Example 3 in Japanese, Kokai Publication Sho-dO-75294). 10
Tims, the ratio of reduced coenzyme Ql0 among the entire
coenzymes QI0 in the microbial cells is. not clear..
Furthermore, in both of the above (! ) and (2), the produc­
tion amount of coenzymes Q in culture are not.described..
As described above, microbial cells containing reduced
which comprises culturing reduced coenzyme QIO-procoenzymeQ1D at high'ratio have not been reported yet. Still
during microorganisms in a culture medium containing a
less, it has not been known a fermentation production of
carbon source, a nitrogen source, a phosphorus source and a
reduced coenzyme Q10 on the industrial scale, that is, a
micronutrient to obtain microbial cells containing reduced
method comprising culturing microorganisms to obtain 20 coeuzymeQ10ataratioofnollessthan.70mole%amongtlie.
microbial cells containing reduced coenzyme QI0 at high
entire coenzymes Q10,
ratio among die entire eoenzymes Q10, and recovering
optionally disrupting the microbial cellst and
reduced coenzyme Q, to obtain high-purity reduced coeneither oxidizing thus-produced reduced coen2yme Ql0 to
2yme Qiooxidized coenzyme Q10 and then extracting the resultant by
Under such circumstances, if a method for obtaining a 25 M organic solvent, or extracting thus-produced reduced
large quantity of coenzyme Q.I0 containing reduced cocncoenzymeQ10 by an organic solvent, purifying optionally and
zynie Q, 0 at high ratio by culturing microorganisms is found,
oxidizing the resultant to oxidized coenzyme Q10,
it can be a liighly useful method for producing reduced coenAccording to the processes of die present invention:
zymeQ10.
reducedcoenzyiheQlo can be produced cheaply on the indus30 trial scale by considerably simple steps comprising culturing
SUMMARY OF THE INVENTION
microorganisms and recovering reduced coenzyme Q10. In
addition, oxidized coenzyme Ql0 can also be produced by
It is an object of the presentinvention to provide a process
simple processes. Moreover, these coenzymes Q10 produced
forproducing reducedcoenzymeQ10safelyand.efficiently on
by microorganisms basically do not contain (Z)-isomers
the industrial scale by culturing reduced coerizyme Q10-pro- 35 1ilere°f> mid (all-E) isomers thereof can be obtained, which
ducing microorganisms for obtaining microbial cells con tain!*re same as ,bose contained in meat, fish, etc.
ing reduced coenzyme Q10 at high ratio and suitably recov­
DET41LED DESCRIPTION OF THE INVENTION
ering: reduced coenzyme Ql0 from the microbial cells.

• js“* p“

“ ** -y-

cesses byreulhtring reduced coenzyme Q10-produciiig.micra,nucroPrgani«ras are cultured to obtain microbtai
organisms for obtaining microbial cells containing reduced
‘ 7,?n alnln8-reduced coenzyme Ql0 at a ratio of not less
coenzyme Qla at high ratio, and oxidizing the reducedeoen, f 1° mole A pref‘'?bI£.not less than 75 mole %, among
zymeQl0 obtained from the microbial cells as an intennedi- ,,
u Q‘° f®”?enta"01,)’
ate substance in producing oxidized coenzyme Q,n.
‘
''’1,cr°b,al cclls containing reduced coenzyme Q10 at
That is. the present invention relates to
1 ^ .ra '?enlire coenzymes Ql0 can be basia process forproducing the reduced coenzyme Q)0 repre,by cullur‘"gMicrootganisms capable of pro(jj SO coenzymes Q10.
How much ratio the microorganisms can produce reduced
coenzyme Q10 among the entire coenzymes Q10 can be evalu­
ated, for example, by a method comprising culturing the
microorganisms with shaking (amplitude; 2 cm, 310 recipro55 cation/min) at 25° C. for 72 hours in 10 mL of a culture
medium ((glucose: 20 g, peptone: 5 g, yeast extract: 3 g. malt
extract: 3 gj/L, pH: 6.0( using a tost tube (inner diameter: 21
mm, entire length: 200 mm).
which comprises culturing reduced coenzyme Q10-proAlthough the preferable culture conditions for the fomienducing microorganisms in a culture medium containing a so tation production on the industrial scale will be described
carbon source, a nitrogen source, a phosphorus source and a
later, the above-mentioned culture condition is one method
micromitriem to obtain, microbial cells, containing reduced
for standardizing the ratio of reduced coenzyme Q orocoenzyme QJ0 at a ratio ofnot less than 70 mole % among tile
dneed. which microoraanisms have as its ability soas t"

'tS&SXmm**,'**

extracting thus-produced reduced coenzyme Q,0 by an
organic solvent.

„

Under .the above-mentioned culture condition it isnrefer.
able to use microbial cells wherein a content’of rliuceci

6 of 19

SA6
KAN-CDCAL-240410

US 7,910,340 B2
5

6

coenzymc Q10 is at a ratio of not less than 70 mole %. pref- gomonas, the genus Spomtrichum, the genus Sympodiomyerably not less than 75 mole %, among the entire coenzymes copsis, the genus StaigpmlotporidiMn, the genus Tapharina,
Q,o, for thepresent invention, it is still more preferable to use
the genus TremeUa, the genus Trichosporon, the genus Tillcmicrooiganisms having a productivity of reduced cocnzyme
tiaria, the genus Til/elia, the genus Tolyposporium. the genus
Q10 per unit culture medium of generally not less titan 1 5 TiUctiopsis. the genus Usiilago. the genus Udcniomyces, the
jig/mL, preferably not less than 2 pg/niL under the abovegenus Xantliophilomyces, the genus Xoiiihoharter, the genus
mentioned culture condition.
Paccilomyces, the genus Acremonium, the genus HyhomoThe above-mentioned content of reduced coenzyme Q10
mi.t. and (he genus llliiznhium:
and ratio of reduced coenzvme Qla among the entire coenlit terms of the' culture easiness and productivity, bacteria
zymes Q10 can be confirmed by physically disrupting the to (preferably nonpholosynllictic bacteria) and yeast are premicrobial cells, extracting coenzvme Out front thus-obtained
ferred. As the bacteria, there may be mentioned, for example,
cells by an organic solvcni and performing HPLC .analysis.
the genus Agmbacterium, die genus Gluconobactcr and the
Specifically, the measurement can be carried out according to
like. As the yeast, there may be mentioned, for example, the
the following procedures:
genus Schizosacchammyces. the genus Sailoella and die like.
(1) The broth ofmicroorganism is optionally concentrated, 10 is As preferable species, there may be mentioned, for
parts by volume ofthe brodt are displaced to a screw cap test
example, Agmbacterium timiefacicncc IFOl 3263, Agmbactube (inner diameter: 16.5 mm, entire length: 130 mm), and
terium radiobaeter ATCC4718, Aspergillus davatus
10 parts by volumeofglass beads are added (425 to 600pm,
JCM1718, Acetobacter xylinum il:035237, Aminobacler
manufactured by SIGMA Co.);
aganouotsri JCM78S4, Agmmonas Oligoimphica ICM1494,
(2)3partsby volume ofisopropanol and 18.5 parts by volume 20 Acidiphilitim multivomm JCM8867, Bullcmmyces albus
of n-hexanc relative to 10 parts by volume of the broth arc
IFOl 192, Bullera aruieniaca IFO10I12, Brevimdinionas
added under a nitrogen atmosphere;
diminuta JCM27S8, Cryptococcus lautvmii IF00609,
(3) microbial cell disruption and extraction arc carried out by
Chionosphacra apobasidialis CBS7430, Candida ciavata
vigorously shaking of the mixture for 3 minutes under a
ATCC10567,
Cerinosterus
Ittlcoafbus
JCM2923,
nitrogen atmosphere; and
25 Exisophiala alcalophila JCM12519, Exobasidimn gracile
(4) the obtained hydrophobic organic solvent phase (n-hexJF07788, Fellomycesfuzhouensis IFOl 0374, Filobasidiella
ane phase) is evaporated (bath temperature: 40° C.) under
neoformans CBS132. Filobasidimn capsuloigennm
reduced pressure to analyze the resultant by HPLC.
CBS 1906, Geotrichum capitaium JCM6258. Grapliiola
Column: YMC-Pack 4.6x250 nun (manufactured by YMC.
cylindrica IF06426. Gluconobactcr suboxydans IF03257.
Co., Ltd.)
.to Kockovaclta imperatae JCM7826, Kurtzmanomyces
Mobile phase: incthanol/n-hexane=85/l 5
nectairei IFOl 0118, Lalaria cerasi CBS275.28, Leucospo­
Flow rate: 1 mlVmin,
ridium scotlii IFOl 212, Ix'gionc/la curia JCM7573, MelhyDetection: UV 275 nm
lobacterium extorguens JCM2802, Mycoplana ramosa
Retention time: reduced coenzyme Q,0 13.5 min
JCM7822, Oosporidium margaritiferum CBS2531,
oxidized coenzymc Ql0 22.0 min
35 Pseudomonas denitrificans IAM 12023, Pseudomonas
The above-mentioned measurement method is provided
shuylkillicnsis IAM 1092, Psedozyma apbidis CBS517.23.
for the obtained result to reflect the reduced coenzyme Qm
Paracocctts denitrificans JCM6892, Pctromyces alliaceus
content and the ratio of reduced coenzyme Q10 among the
IF07538, Rhodolontla ghttinis IFOl 125, Rhodotortda
entirecocnzymesQ10nsnccurateaspossib]e,andtostandardminirta 1FO0387, Rhodosporidium diobovaittm ATCC1830,
izethecontenlandthefatioofreducedcocnzymeQ10,which 40 Rhizomonas suberifacicns IFOJ5212. Rhodobitmi orients
can be guaranteed at the minimum. This method has been
JCM9337,
Rbodoplanes
elegans
JCM9224,
demonstrated, by several experimentations performed by tlie
Rhodopseudomonas palustris JCM2524, Rhodobactcr cappresent inventors, easy and suitable to be carried out.
sulatus SI31003, Spombolomyces holsalicits 11-01034.
As the above-mentioned reduced coenzymc Q,(,-producSpombolomyces pararoscus 1FO047I. Sporidiobolus
ing microorganisms to be used in the present invention, bae- 45 johnsonii jpO1840, Sailoella complicalo 1FO10748,
leria, yeast and fungi may be used without any specific limiSchizosacchammycespombe 1FO0347, Sphingomomsparatation. As specific examples of the above-mentioned
paucimobiUs 1FO15100, S/Jomtrichuin cellu/opkilimn
microorganisms, there may be mentioned, for example,
ATCC20493, Sympodiomycopsis puphiopedili JCM8318,
microorganisms of the genus Agrobacterium, the genus
Stcrigmatosporidium potymorphum IFO10121. SphingomoAsjtergilius, the genus Acetobacter. the genus Aminobacter, 50 Has adhesiva JCM7370; Tapharina caerulescens
the genus Agromonas. the genus Acidiphilium, the genus
CBS351.35, Tremella mcsenlerica ATCC24438, Trichos­
Bul/emmyces, the genus Bullera, the genus Bnrinntdimonus,
poron cmaneum IFOl 198, Tillctiaria anomala CBS436.72,
the genus Cryptococcus, the genus Chionbsphacra, the genus
Tilleiia caries JCM1761, Tolyposporium bullatum JCM2006,
Candida, the genus Cerinosterus, the genus Exisophiala, tile
Tilletiopsis washinlonesis CBS544, Usiilago esculenta
genus Exobasidimn. the genus Fellomyces. the genus Filoba- 55 IFQ9887, Udeniqmyces mcgalosponts JCM5269, Xanthosidiclla, the genus FUobasidiinn, the genus Geotrichum, the
philomyccs dendrorhous 1FO10129, Xanthobacter fiavus
gen us Grapbiola, the genus Gluconobactcr, the genus KockoJCMI204, Paccilomyces Macinus ATCC10114, Acremovaella. the genus Kurtzmanomyces, the genus l.alaria. the
nium chrysogenum ATCC11550, Hyphomonas hirschiana
genus Leucosporidium, the genus Legionella, the genus
ATCC33886, Rhizobium meliloti ATCC9930, and the like.
Methylobactcrium. the genus Mycoplana. the genus Oospo- 60
As the reduced coenzyme Q,0-produciug microotganisms,
ridium. the genus Pseudomonas, the genus Psedozyma, the
not only the wild species of'the above-mentioned microor­
genus Paracocctts, the genus Pcimmyccs, the genus Rbodotganisms but also microorganisms in which the transcription
orula, the genus Rhodosporidium, the genus Rhizomonas, the
and translation activities of the genes relevant to the biosyn­
genus Rhodobium, the genus Rhodopiancs, the genus
thesis of reduced coenzymc QI0 in the abovc-menlioned
Rhodopseudomonas, the genus Rhodobacter, the genus 65 microorganisms, or the enzyme activity of the expressed proSporobolomyccs, the genus Sporidiobolus, the genus Sai­
lein are modified or improved can be used preferably, for
loella, the genus Schizosacchammyces. the genus Sphinexample.

7 of 19

SA7

KAN-CDCAL-240411

US 7,910,340 B2
7

8

an^™d^
? Senes0r'1le^~'>ty

m'croolSai)istn proliferation. As the above-mentioned nutrients. there may be mentioned, for example, carbon sources

sussrs«sKaB«

J^isfeStSrr ’ ^ss^sssss^z
The more preferable micitrorganisms usable for (hepresent
such as magnesium, potassium, zinc, copper, iron, mama£«“ tfC£^rSwiiT»
10 uese' molybdenum., sulfuric acid and hydrochloric acid: vitaSan
1110 6y\preferab y notIess
mins such as biotin, desthiobiotin and vitamin Bl: amino
™
r
m^cPref“ablyf tef to 80molc%, still
acids such as alanine and histidine; and naturalraw materials
,%m0le A’ \nd P""Cularly
containing vitamins such as yeast extract and mall extract):
pioferabl) not less than 90 mole A, among the entire coeuhowever, these are not limitative ones, and commonly used
“ “Se Cre ye abW7?<w««?ped modified is ones may be used. Incidentally, in.natural components of a
,£T microorganisms, preferably microorganisms
culture medium, such as yeast extract, phosphorus Sources
mutated by mutagen?, are evaluated by the above-mentioned
such as phosphates are contained, The above-mentioned
proliferation method and the measurement method. In ihe
nutrients can be appropriately used in combination
.fermentation production on the industrial scale, it is preferThe culture is generally ctmied out at a temperature range
able to use microorganisms having a productivity ofreduced 20 of 15 to 45° C„ preferably 20 to 37° C If it is below 15° C
coenzyme Q10 per umt culture medium of not less titan 1
the proliferation speed of microoiganisms tends to be too’
pg/mL, preferably hot less than 2 pg/mL, more preferably not
slow to allow the industrial production and at high tempera­
less than 3 pg/mL, still more preferably not less ihan5 pgAnL,
tures exceeding 45° C. the viability ofmiertoigarrisms tends
particularly preferably not less than 10 pg/mL. much more
to be easily hindered.
preferably not less than 15 pg/mL, andmosl preferably not 25 In general, the culture is carried out at a pH range Of 4 to 9
Iessfhan20pg/mL..
preferably 5 to 8. If the pH is notmore than 3 or not less dian
The mutagenesis may becarned out by a single mutagenlO.proliferationofmicrooiganismstendstobeeasilyinhibesis:however,.mutagenesis is preferably earned out not less
ited,
-wiyramo
tlian2 times. That is because it was found that theproductivity
In the. fermentation production on the industrial scale
of reduced coenzyme Q10 can be unproved in the respective jo although it depends on the microotganism species, the cmmutagenesis steps. It is needless to say.thai the candidates of
cemration of the carbon sources (including tbe produced
the microbial cells to be mutated are, generally, those having
alcohols) during the culture is preferably controlled to a cona productivity ofreduced coenzyme Q,0 as high as possible in
centratiou that no adverse effects are substantially caused on
the case where the evaluation is carried out by the abovethe productivity ofreduced coenzyme Q10. Accordingly, it is
mentioned proliferation method and measurement method. 35 preferable to control the culture so as to have the concentraThc mutagenesis can be earned out by using optional and: tionofthc carbon sources that no adverse effects are subsiane”S'
!em? ““ul«8ee” encompasses, in a tiallv caused on the productivity of reduced coenzyme Q,n,
board definition, not only chemical agents having mutagen- that is, generally tdnot morefteMOg/L. preferably hot niord
mu
. r,-taufe“S: th?f may ’f“entJcm®d «%> niethanesulfohate,
To'coiflrol the concentration of the caibon sources, a fed
UV radiation. N-methyl-N-mtro-N-nitrospguanidme, nudebatch culture method is preferably used: Tire carbon source
otide base analogues; such ns brompuracl, and acridines;
concentration in die broth can be controlled bv adjusting the
however, they are not limited to these examples.
supply of nutrient sources (especially carton sources) based
According to a conventional mutagenesis technique, sue- 45 on. the culture control indexes such,as pH the dissolved
cesstvely to the mutagenesis, a proper selection of microbial oxygen concentration (DO) or the remaining saccharide concells having high producti vity of reduced coenzyme Q10 is centration. Although it depends on the microorganism specarned out. For that, the cultureobtainedfromasihglecolony cies.thesupplyofthe nutrient sourcesmav be started from the
should be evaluated, lor example, by the above-mentioned
initial stage of the culture or during the culture The supply of
proliferation method and measurement method. Since; a *> the nutrient sources may be Continuous or intermittent Incireduced coenzyme Q10 crystal forms a.white' solid layer or a
dentally, in supplying the nutrient sources, it is preferable to
cplorless liquid phase, a productivity of reduced cocnzyme
supply the above-mentioned caibon sources to the culture
■Q10 can be suitably evaluated bv the above-memionedmeamedium separately from other components
surement method at the time of selection of the colony.
The culture can be completed at the point when a desired
Jtuhe processes of die present invention, high productivity 55 amount of reduced coenzyme Ql0 is produced Tlie culture
ofreduced coenzyme Q10 in the fennentation production on
duration is not particularly limited and it is generally 20 to
the industrial scale can be acliieved partially by using the
200 hours.
microbial cells containing reduced cocnzyme Q10 at a ratio of'
The above-mentioned culture is generally carried out aeronot less than 70 mole % among the entire coenzymesQ10 and,
bically. The term ‘■aerobically" means a condition that oxvparually, by using the suitable conditions of culture (fehnen- 60 gen is supplied so as not to cause oxygen limitation (oxvaen
ration) for increasing a productivity ofreduced coenzymeQJO
deficiency) during the culture, and preferably a condition that
per unit culture medium as described below. It is particularly
oxygen is supplied sufficiently so as not to cause substantial
prelerable 1° cCmbtuedly use suitable microbial cells
oxygen limitation during the Culture. The culture is carried
described above and the suitable conditions of culture (feroutgenerally underanaerationcondition preferably under an
mentation) as described below.
*s aeration and stirring condition.
’
The culture is carried out, in general, ih a culture mediimi
By using the above-mentioned microorganisms and culcontaimng major nutrients and micronutncnts suited for
lure conditions, it becomes possibie to obtain microbial cells

8 of 19

SA8
KAN-CDCAL-240412

US 7,910,340 B2
9

10

containing reduced coenzyme Q,0 at a ratio ofnot less ih;m70 preferably the one with a strong acid (c.g. an acid having a
mole %, preferably not less than 75 mole % among die entire pKo value of not more than 2.5 in die form of an aqueous
coenzymes Q,0. Furthermore, die productivity of reduced solution) under the condition dial reduced coenzyme Ql0 is
coenzynie Q(0 ofas high as not less than 1 pg/ml, preferably protected from an oxidation reaction as described below) and
not less than 2 pg/tnL. and still more preferably not less than 5 the heating treatment are preferred. From the viewpoint of
3 pg/mL can be obtained!
disruption efficiency, the physical treatment is more preNcxt, recovery of the reduced coenzyme Ql0 produced by
ferred.
the above-mentioned culture will be described.
A conventional ceil disruption method and coenzyme Q,0
In the present invention, an efficient production of reduced extraction method, specifically, a method comprising exlraclcocnzyme Q10 on the industrial scale is made to be possible to ing coenzyme Q,0'by an organic solvent in the presence of
partially by the above-mentioned suitable culture and parsodium hydroxide and pyrogallol has problems in temis of
dally by the suitable recovery process of reduced coenzyme
cost, waste treatment, safety in effective utilization of waste
Qio as described below.
microorganisms (waste cells) such as recovery ofprolein.and
Recovery of reduced coenzyme Ql0 is carried out by
the like. However, the celt disruption method, particularly the
extraction from the microbial cells obtained by the above- u physical treatment method of the present invention, does not
mentioned culture using an organic solvent.
cause subgeneration of a large quantity of salts bv neutralizaIn the extraction, cells can be disrupted optionally. Thecell
lion, and is a suitable method from a viewpoint of the waste
treatment and the effective utilization of waste microoigandisruption contributes. to the efficient extraction of the
reduced coenzyme Q,0 produced and accumulated in cells. It
isms (waste cells).
is needless to say that thecell disruption and extraction can be 20 The form of the microbial cells to be used for the abovecarried out at the same time.
mentioned ceil disruption may be a broth, a concentrated
Incidentally, “disruption’’ in the present invention may be
broth, microbial cells collected as wet cells from the broth, a
carried out to the extent that the surface structure such as a cell
product obtained by washing them, a suspension of the wet
wall is broken so as to make extraction of reduced coenzyme
cells in a solvent (including, for example, water, physiologiQiopossible; therefore, it is not necessary’that microbial cells 25 cal saline solution, buffers and (he like), dry cells obtained by
are tom or frogmen la led,
drying theabove-mehtioned wet cells, a suspension ofthe dry
The above-mentioned cell disruption is not necessarily
cells in a solvent (including, for example, water, physiologirequired in the case of bacteria. However, in the case of yeast
cal saline solution, butlers and the like), and die like. Prcor fungi, the cell disruption is generally required and, when
felted is an aqueous suspension of microbial cells, and in
cells are not disropted, it becomes difficult to efficiently 3ii terms ofoperability aild the like, more preferred are the broth,
recover the reduced coenzyme Q10 produced and accumuthe concentrated broth, and the product obtained by washing
lated in the cells.
them.
The above-mentioned disruption of microbial cells can be
The form of the above-mentioned microbial cells or dis­
carded out by the following one or several disruption methods
rupted product thereof ot be used for extraction and recovery
in optional order As the disruption method, there may be is ofreducedcoenzymeQ10 is. similarly as described above, not
mentioned, for example, a physical treatment, a chemical
particularly limited and may be wet cclis/dry cells of the
treatment, an enzymic treatment as well as a healing treatmicrobial cells/disrupted product thereof. Preferably, it is an
ment. an autolysis, on osmolysis, a plasmoplysis and thelike.
aqueous suspension of the microbial cells or disrupted prodThe above-mentioned physical treatment can be carried
iict thereof, and more preferably the broth, the concentrated
out, for example, by using a high pressure homogenizer, an 4o and/or washed broth, or solutions obtained by disrupting
ultrasonic homogenizer, a French press, a ball mill and the
tlicm (each of them is an aqueous suspension),
like or using them in combination.
Thecell concentration in tltcabove-meniioned suspension
The above-mentioned chemical treatment can be carried
of the microbial cells or disrupted product thereof is not
out, for example, by using an acid (preferably a strong acid)
particularly limited and is generally 1 to 25% by weight on the
such as hydrochloric acid and sulfuric acid, a base (preferably 45 basis of dry Weight. Preferably, it is 10 to 20% by weight in
a strong base) such as sodium hydroxide and potassium
terms of cost,
hydroxide and the like or using them in combination.
Reduced coenzyme Q,0 can be recovered by extracting the
The above-mentioned enzymic treatment can be carried
microbial cells anddisruptedproduct thereofobtained in such
out, for example, by using lysozyme, zymolyase, glucnnnse,
a moaner by an organic solvent.
Novozyme, protease, ccllulasc and the like or by using them 50 As the organic solvent to be used for the extraction, there
appropriately in combination.
may be mentioned hydrocarbons, fatty acid esters, ethers,
The above-mentioned heating treatment can be carried out,
alcohols, fatty acids, ketones, nitrogen compounds (including
for example,by heating to the temperature rangcof60 to 100°
nitrites and amides), sulfur compounds and the like.
C. for about 30 minutes to 3 bouts.
Particularly, in extracting reduced coenzyme Q,0, in terms
The above-mentioned autolysis can be carried out. for 55 of protection from oxidation by a molecular oxygen, at least
example, by treatment with a solvenl such as ethyl acetate.
one species of hydrocarbons, fatty acid esters, ethers, and
The osmolysis Or die plasmoptysis for disrupting cells by
nitrites is preferably Used. Among them, hydrocarbons and
treating cells with a solution having a different salt concern
fatty acid esters arc particularly preferable, and hydrocarbons
tration from tliat in the cells are often combinedly used with
are most preferable.
the above-mentioned physical treatment, chemical treatment. 60 On the industrial production scale, complete oxygen elintienzyniic treatment, heating treatment, autolysis and/or the
nation is very difficult to be achieved arid, furthermore, fairly
like since the above lytic method alone is insufficient in the
long periods of time are required for individual operations,
disruption effect.
unlike laboratory scale production, so that residual oxygen
As the cell disruption method as a pretreatment of cxtracexerts a great adverse effect. The oxidation in question is
|ion and recovery of reduced coenzyme Q(0. among the 65 directly connected to a subgeneration of oxidized coenzyme
above-mentioned disruption methods, the physical treatment,
Q10 from reduced coenzyme QJ0. Accordingly, use ofthe
die chemical treatment (particularly, an acid treatment and
above-mentioned organic solvent (such ns hydrocarbons,

9 of 19

SA9

KAN-CDCAL-240413

US 7,910,340 B2
11

12

* rrs -r-■?

3S3Sias«s^.
t“2£2SSrtl¥l" t.wd.taBtaV
Zffia&ssss&s^ ssasuamsssitsst
SSsSSSF ”
malic hydrocarbons, halogeiiated hydrocarbons. and the like

trichioraelh-me

< , ,L

' :,,

Mwoethane,

1,1.2-

P f ? P
^ere may bc memioncd- f°r
1,2-dichloroeUiylene. trichloroethylene. chlorobenzene 1 1'
to^PhL^PT'
T6; 1SObute^ pentane. 2-methylbu- is 1 2.tetrafi»oroethta1e,andthelikc,'MorcpreferredarcdicitIo£
’ 2-metliylpentane, 2,2-diinethylbutane, 2,3romethane. chloroform, 1.2dicWoroetbylene trichlorocthyl.
dimelliyhiu^ne^he^anc, hep tone isomers (e.g. 2-methylhexene; ch.oraber^eJ,U!2.,euafli,oi^!i^2tS1
, 3-me'liliIicxane,
2o-dim-ethylpemane,
2,4Thefanyacidbstersarenoiparticnlarlyresiricled butthere
nn^y 2 ^'!e ’
2>2J3-®’raefl0,1Pf«!"». isooctane.
may be mentioned, for example, propionates, acetates forfw™'!Tthylhexa"e- dEcane‘- dodeea“C. 2-pea- 20 mates, and the like. Preferred are acetates and formates and
tone, 1-hexene, H>epten* 1-octette, 1-npnene. I-decene,
more preferred are acetates. Ester functional groups thereof
elnWanlaU?t T’1^ i?C Opentane! 7clohexane’ »«eUiylcyare not particularly restricted, but. in gencral^referred are
U f1^ Pref^d teXaeC: P‘a,®,han?- ^c!ohcxe^ *<*
alkyl esters haying 1 to 8 carbon atoms andaralkvl earn
2m
t ^*"*1 ftP n‘alf: 2-n,«,Vlbutaite, hexane,
having 7 to 12 carbon atoms, more preferred are alkvl esters
heptnire 1heptine
2.W«K*yIbWane, 25 havinS 11° 6 carbon atoms, and still more preferred are alkyl
heptane, heptane isomers (e.g. 2-melliylhcxanc. 3-melliylesters having 1 to 4 caibon atoms.
oC2
Pen-tane!<2:4'd'meth>'lpenlane)‘octene'
As'
examples of the propionates, there may be
hdnnn dp hy pcn fC’ 1S00Cto?e‘ nonane’ 2,2,5-trimethylmentioned, for example, methvl propionate, ethyl propionate
ltxane, decane, dodecane, cyclopentane, methylcyclopenbutyl propionate, isopemyl propionate, and thcJike Preferred
tane, cyclohexane, metliylcyclohexane, ethylcyclohexanc. 30 are ethyl propionate and the like
p-menthane, and the like. More preferred are pentane, 2-meAs specific examples of the acetates there may be men,2f’^^lane< 2,2-dimethyjbutane,
tinned, for example, methyl acetate, ethyl acetate, propyl
2,3-dtmethylbutane heptane heptane isomers (e.g. 2-meihacetate, isopropyl acetate, buy! acetate, isobutyl acetate sky ^"DC; 3-»eU>yHw*an^ 2,3-dimethylpentanc, 2,4-dimbutyl acetate, pentyl acetate; isopentyl acetate scc-hexyl
elbylpenmne), octane, 2,2.o-lnmethy]penlane, tsooctane, 33 acetate, cyclobexvl acetate, benzyl acetate and flic like Pre­
cyclopentane mcthyjcydopentaoc cyclohexane, methyleyfetred arc methyl acetate, cthvl acetate, propvl acetate isoly TC'0heXar!afd,Ure like‘1.
,
Wf acetate, butyl acetate, isobu.yfoacdate scc-iiu”l

«SSSS~S *

^af. heplanf <ef hcP,afle> hietliylcyclohexAs specific examples of the formates, there may be menane and the hke) having 7 carbon atoms. Particularly pretioned, for example, melhvl formate, ethyl formate propyl
ferred arc heptanes (e.g. heptane, mctbylcyclohcxanc and the « formate, isopropyl formate', butyl formate* isobutyl fonnaro
like) m terms of especially high protection effect from oxisec-buty l fomtaie. pentyl fonuale. and the like Preferred are
dation, and the-most preferred is heptane.
methyl formate, ethyl formate, propyl formate. bu1vl formate

spewsits: *

tioned, for example, benzene, toluene, xylene, o-xvlene,
preferably used in general. Generally, ones containing Mo 20
m-xylene, pocylene. ethylbenzene, cumene, mesitylenc.
carbon atoms preferably 4 tn t? 'Ah». ammc „£i
toi'StyfolnrenT1T‘
d£h*
P^rab^logcarbohaoms areused^s speci fic example^
ylbenzene. pemylbenzene, dipentylbenzene, dodccylben- 55 there may be mentioned, for example dieihvl ether methv
zene styrene, and the like. Preferred are toluene, xylene,
lert-butyl ether, dipropyi ether, diisopwpvl ether'' dib.nyl
o-xylene, m-xylene p-xylene, ethylbenzene, cumene, mesiether, dihexyl ether, ethyl vinvl ether, butyl v'mvl ether aniso^
tylcne.tcunhn, butyl benzene, p-cymenc,cyclohcxy]bcnzcnc,
phcnctole, butyl phenyl ether methoxvinhipno
diethylbenzene, pentylbenzene and the like. More preferred
foran. 2-methylforan tetrahvdrofnran tetnhvHm’u •
areio'uene xylene, o-xylene, m-xylene, p-xylene, cumene, « ylenc glycol dime^l Sv SS SS*
tetralm and the hke, and most preferred is cumene.
ethylene glycol dibutyl ether, etl'tylene glycol monomefityi
Tlie halogenated hydrocarbons are not particularly
ether ethylene glycol monoelhyl ether, ethylene glycol
restricted, and may be cyclicpr acyclic, or saturated or unsat­
monobutyl ether, and the like. Preferred are diethyl ether
urated. However, acyclic ones are preferably used in general.
fa! f 'Tether- diPraP>'1 olhcr- dbsopropyl ether,
Usually, more preferred are chlorinated hydrocarbons and
5 d‘ J c‘cr’ d|hexyl ether, anisol, phenetole. butv! phenyl
fluorinated hydrocarbons, and chlorinated hydrocarbons are
ether, methoxytoluene, dioxane. 2-raethylftuan, tetrahydrostill more prefeifed. Additionally, ones containing 1 to 6
iuran, lelraltydropyran. ethylene glycol dimethyl ether, cth-

SA10

10 of 19

KAN-CDCAL-240414

05 7,910340 B2
13

14

ylcnc glycol diethyl ether, ethylene glycol dibuiyl ether, cth- there may be mentioned., for example, acetone, methyl ethyl
ylene glycol monomelhvi ether, ethylene glycol monoethyl
ketone, methyl butyl ketone, methyl isoblttyl ketone, and the
ether, and the like. More preferred are diethyl ether, methyl
like. Preferred areacetoneand methyl ethyl ketone, and most
tcrt-butyl ether, anisol, dioxaue, tetrahydrofuran, ethylene
preferred is acetone.
glycol monomelhyl ether, ethylene glycol monoelhyj ether, 5
The nitriles are not particularly restricted, and mav be
and the like. Still more preferred are diethyl eihef, methyl
cyclic or acyclic, or saturated or nnsaturaled. However, satutert-butyl ethw amsol, and the hkc, and most preferred is
ra|ed 0JieS are preferab|y used 5n gcncrtl1. Generally; ones
mei> c - u> e ter.
.
containina 2 to 20 carbon atoms, preferably 2 to 12 carbon
The alcohols are not particularly restricted but mav be'
t
' ' i* .
/ • " ,
cyclic or acyclic, or saturated or unsaiutnted. Saturated ones to ",0“ ’ " 5°" P ? V •?
la,0MS “
are generally prefeired, however. Generally, ones containing
As ,specific ?afPIes' lhcre. In?>' * mentioned, for
1 to 20 carbon atoms, more preferably 1 to 12 carbon atoms
exa.mple' •ncctonltrl]e- propionomtmlo, malonomtrile, bmyund still more preferably 1 to 6 carbon atoms are lised. Among
‘sobutyromtrile, succmomtnlc. valcronitri le, gluthem, tnonohydric alcohols containing 1 to 5 carbon atoms,
laronilrilc, hexanenitrile, hept\lcy:inidc. octylcynnide, undcdihydric alcohols containing 2 to 5 carbon atoms, and trihy- 15 cancnitri!e,
dodecanenitrile.
tridecanenitrile,
dric alcohols containing 3 carbon atoms are preferred.
pentadecancnitrile, stctironitrilc, chloroacclonitrile, bnoAs specific examples of these alcohols, there may be menmoacetonilrile, diloropropiononilrile, bretnopropiononitrile.
tioned, for example, monohydric alcohols such ns methanol.
mcihoxyacelonitrile, methyl cyanoacctate, ethyl cyanoacethanol, 1 -propanol, 2-propanol; 1-butanol, 2-hutanol, isobuelate, tohinitrile, benzonitrilc, chlorobenzonitrilc, bromobentyl alcohol, tert-butyl alcohol,1-pentanol, 2-penlanol. 3-pen- 20 zonitrile, cynnobcnzoic acid, nitmbenzonitrile, nnisonitrile.
tanol, 2-methyl-l-butanol, isopentyl alcohol, ten-pentyl phthalonitrile, bromotolunitrile, methyl cyanobenzoate,
alcohol, 3-methyl-2rbutanol, neopentyl alcohol, 1-hexanol, methoxybcnzonitrile, acetylbenzonitril’e, naphthonitrilc,2-mclliyl-l -penhino!. 4-incthyl-2-pcntanoI, 2-cthyl-l-bubiphenylearbonitrile, phcnvlpropiononitrilc, phcnylbutyitinol, l-lieptanol, 2-heptanol, 3-heptunol, ]-actimo], 2-ocrenilrile, methylphenylacetonilrile, diphenylacctonitrile.
ianol.2-ethyl-l-hexanol, l-nonanol, 1-decanol, l-nndccanol, 25 naphthyjacetonitrile, nitroplicnylacetonitrile, chlorobenzyll.-dodecanol, nllyl alcohol, propargyl alcohol, benzyl alcohol,
cyanide, cyclopropanecarbonitrile, cyclohexanecarbonilrile,
cyclohexanol. 1 -methvlcyclohexanol, 2-methylcycloiiex- cycloheptanecarbonitrile, phenylcyclohexanccarbonilrile,
anol, 3-methvlcyclohexanol, 4-methylcydohcxano!, and the
tolylcyclohexanecafbonitrile, and the like,
like; dihydric alcohols such as 1,2-ethanediol, 1,2-propanPreferred are acetonitrile, propiononitrile, succinonitrile.
diol, 1,3-propnndiol, 1,2-hutanediol, 1,3-hutanediol, 1,4-bu- 3ft butyronitrile, isobutyronitrile, vnleronitrile, methyl cynnonctaiiediol, 2,3-butanediol, 1,5-pentanediol. and the like: and
euite, ethyl cyanoacctate, benzonilrile. tolunitrile and chlorotrihydric alcohols such as glycerol, and the like.
propiononitrile. More preferred are acetonitrile, prapiononiAs the tnonohydric alcohols, preferred are methanol, etha­
Irile, butyronitrile and isobutyronitrile, and most preferred is
nol, 1-propanol, 2-propanol, I-butanol, 2-butanol, isobutyl
acetonitrile.
alcohol, tert-butyl alcohol, 3-penlano], 2-pentanol, 3-pen- 35
As the nitrogen compounds other than nitriles, there may
tanol, 2-incthyl-l-butanol, isopcntyl alcohol, tcrt-pcntyl be mentioned, for example, amides such as fonnamidc,
alcohol, 3-mctliyl-2-butahol, neopentyl alcohol, 1-hexanol. N'-methylformamide, N.N-dimethylformamide, N,N-dim2-mcthyl-i-pcntanoi, 4-methyl-2-pentanol. 2-cihyl-I-bu- ethylacetoamidc, N-tnethylpyrrolidone, and nilrontelhane.
tanol, l-heptanol, 2-heptanol, 3-hcptanol, 1-octanol, 2-octrielhylamine, pyridine, and the like:
tanol. 2-ctliyl-l-hexanol, l-nonanol, 1-deeanol, 1-tuidecanol, 40
As the sulfur compounds, there may be mentioned, for
1-dodecanol, benzyl alcohol, cyclohexanol, 1 -jnclhylcycloexample, dimethyl sulfoxide, sulfolane, and the like,
hexanol, 2-metkylcyclohexanol. 3-methylcyclohexanol,
In selecting (he organic solvent to be used from among the
4-inethylcycIohexanol, and the like. More preferred arc
oiganic solvents mentioned above, such properties as boiling
methanol, ethanol, 1-propanol, 2-propanol, 1 -butanol, 2-bupoint and viscosity (<kg. the solvent should have a boiling
tanol, isobutyl alcohol, tort-butyl alcohol, 1 -pcmaiioi, 2-pcn- 45 point which allows appropriate warming for increasing solulanol, 3-penlanol, 2-methyl-l-butanpl, isopentyl alcohol,
bifity and facilitates a solvent removal front \yet masses by
tert-pentyl alcohol, 3-methyl-2-butanol; neopentyl alcohol,
drying and solvent recovery from crystallization filtrates and
1 -hexanol, 2-mcthyl-l -pemanol, 4-melhyI-2-pcntauol,
the like (about 30 to ] 50° C. at I atm), a melting point such
2-ethyl-l -butanol, cyclohexanol, and the like. Still more prethat solidification hardly occurs in handling at room tempera^
ferred are methanol, ethanol, 1-propanol, 2-propanol, I-bu- 50 lure as well as upon cooling to room temperature or below
ianol, 2-butanol, isobutyl alcohol, ten-butyl alcohol, 1-pen(not lower than about 0° C, preferably not lower than about
tanol, 2-pentanol, 3-pentanol, 2-methyl-l -butanol, isopentyl
10° C., more preferably not lower than about 20° C\), and a
alcohol, tert-pentyl alcohol, 3-mcthyl-2-bu(anol, neopentyl
low viscosity (not liiglter than about ,10 cp at 20° C. and the
alcohol, and the like. Particularly preferred are methanol,
like)) are preferably taken into consideration,
ethanol, 1 -propanol, 2-propanol. 1 -butanol, 2-butanol, isobu- 55
The oxidation prevention effect on reduced coenzyntc Q1U
tyl alcohol, 2-methyl-l-butanol, isopentyl alcohol, and the
in a solvent tends to increase in a highly-concentrated solu­
like. Most preferred is 2-propanol.
tion of reduced coenzyme Ql0. Reduced coenzyntc Q,0
As the dihydric alcohols, preferred arc 1.2-cthancdiol. 1,2shows high solubility' in the above-mentioned organic sol­
propandiol, 1,3-propandiol, and the like. Most prefeired is
vents with high oxidation prevention effect (e.g. hydrocar1.2-cthanediol. As the trihydric alcohols, glycerol is pre- so boas, fattyacid esters and the like). The high solubility makes
ferred.
it possible to handle the highly-concentrated solution and to
As fatty acids, there may be mentioned, for exninple. forpromote the oxidation prevention. A preferable concentration
mic acid, acetic acid, propionic acid, and the like. Preferred
ofreduced coenzyme QJ0 for oxidation prevention at (he time
are formic acid and acetic acid, and most preferred is acetic
of extraction is not particularly limited, but is generally not
acid.
r>5 less than 0.001% by weight, preferably not Iessthan0.01%hy
The ketones are not particularly restricted, and ones having
weight, and more preferably not less than 0.1% by weight as
3 to 6 carbon atoms are preferably used. As specific examples.
the concentration of reduced coenzyntc Q,„ in the abovc-

11 of 19

SA11
KAN-CDCAL-240415

,

US 7,910340 B2

15
liZZtZZ
weS
’

8

PPCr i!lnil isn°:part’^!a:ly
’ * 15 “M 1MOre lhaD 10% by

Among the above-mentioned organic solvents, to extract

16
in a range of5 to 50%by volume nod the hydrophobic mganic
so,vent is used “ a range of 25 to 65% by volume relate to
ring*

tl.e temperature at

cdisotd!emnCol ‘TT"* ^i0 frwn,wct ac,)s and dl7 5 <»c time ofextraction is no. particularly limited and is generally in a ranee oi'O to 60“ C. and preferably 20 to 50°'C
cells of the microbial cells or disrupted product thereof,
5£°tS„T£C "W***"* "Z SpecWAs ,be ■«!<>'' method. both batch extraction and ioi,-.
M^rt^T^ronrr^^nel.af??,,,,,e'mMl,a’
,inU0US ex,radi0n Cp^rerabb- coumcreuirent multistage
kmbZV i P "° "1?;P uP
and
Z
extraction) may be used. However, the continuous extraction
vem ro
;
8 **
organic SOI- to (preferably counterourrent multistage extraction) is ptofer^nZ° ,
° recover red need coenzyme Q10 from the
able in terms ofproductivity. The stilting duration in thebatch
Z iherPnfPhnSt°n
miCrob,a} “lls or dlsruptcd Plodextraction is not particularly limited but is generally not less
Z I t ;Ay
°, ,°r8an?C s0!vems m, PrfL‘rMy
“u,n 5 rainuies- 'n,e avenlge retention time in the continuous

SSL";

j:°«.t"; „ srrsr,"“1 “ *

I

a

- •-

hydrophobic oiganic solvents have high oxidation prevention
In recovering reduced coenzyme Q10, it is preferable to be
Z dZvHmf v
’S
^ adxTaSTScareful so that reduced coenzyme Q,Qis°not decomposed (e g.
acid e
hydrocarbops»
■*>
***** coenzyme Ql0 is not oxidized . “oxidizl
f h rP
^
■
cocnzj'me Q10). for that, the above-mentioned extraction
wl,™ ZnZ f h
'^mentl0ned YTl'°n, opcrallon' 29 (mduding cell disruption) is preferably carried out under an
^ten reduced coei^me Q rs extracted from the aqueous
acidic to a weakly basic condition, and more preferably under
S*!f-enfo,n ofthe microbial cells or disrupted product thereof
anacidicmaueuiralcondition.lnthecasewhereapH'isused
H- TZ*? SUSpCnSi0a °f '!lc d!Srup,cd
aS an index, although i. dependson the conlact lime, the pH is
product, further particularly die case in, which the disrupted
generally not more than 10. preferably not more than 9. more
!einS and ^Se se»ara'ion,endsto be
^,he above-mentioned conditions, an oxidation reaction
• Th*refcf>. n b^00™13 important to suppress die
can be substantially prevented and, optionally, more strictly,
formation of emulsions mentioned above and to efficiently
the above-mentioned cell, disruption and/or extraction are
C!,ZT:TUOn- r
1
• .,. .
,
30 preferably carried out under the condition that reduced coenf-or that, as an extraction solvent, in addition to the abovezyme Q10 is protected from an oxidation reaction. If is pref­
mentioned hydrophobic organic sol vent, it is preferable io use
erable to carry outat least the extraction under this condition,
a hydrophilic organic solvent as an auxiliary solvent in com­
and it is more preferable to cany out the disruption and the
bination.
.
.
extraction under this condition.

i

i

g,5' “rb°u atoms are preferably used
gen gas, reduced pressure, a boiling condition); a blob salt
As specific examples of the aliphatic hydrocarbons con- 40 concentration condition, for example, preferably a condition
Z, 7 7 **>”%*** *V be mentioned, for where salts (e.g. inotganic salts such as sodium chloride arid
|n a' p a’
2-meihylbiitane hexane, 2-metbylpensodium sulfate) are contained in not less than about 5% in an
tunc, 2 2-dimefitylbutane ^Munethylbutone, heptane, hepaqueous phase; the condition in the presence of a strong acid
tane isomers (e.g. 2-metltylhexane, 3-methylhexane, 2,.v
(e.g. an acid with a pKa value of not more than 2.5 in ail
dimethylpeiilanc, 2,4-dimcthy!pemanc), octane, 2,2,3- 45 aqueous solution), for example, in the presence of not less
tnmelhylpentane,
isooclane,
cyckipenlane,
than 0.1 mole % of the strong acid relative to 1 mole of
mcthylcyclopcntane Cyclohexane, methylcyclohexane, ctlireduced coenzyme Q,0; and the condition in the presence of
ylcyclohexano, and the like Particularly preferred are hexan antioxidant, for example, in the concomitant presence of
nne, heptane and methylcyclohexane, and most preferred are
ascorbic acid, citric acid, salts and esters thereof (L. not leS
tc^aiie and heptane.
» thtw 0.1% by weight of them relative to reduced coed2yme
wimZhrZ
ZZuUScd mc°mbl,’all0n
Qio). Theremay also be mentioned a reduction condition (a
w,fit the above-mentioned hydrophobic organic solvent is not
condition in whidt oxidized coenzyme Q10 can be converted
ZfcZd uZtdfof ZSemZ°nefaZemflyb?^'
inio reduced coenzyme Q10), for example, a condition involvPreferred are alcohols. .Among the alcohols, monohydne
mg a contact with a rcducina agent such as dithionous acid
Z°°'3 i'aVmV
carb°n.a,01lis are preferably used. As 55
By fheabove-mentionedculture(fermemation)andextracspceific examples tliereof there may- be mentioned, for
tion, reduced coenzyme Q10 can be suiuibly produced and
SZhm6
\Ct ’Tf
2;P?1T?\1'b”'
reC?Vered p«ferably an extract containing m less than 70
tano, 2-butanol, isobutyl alcohol, tcrt-butyl alcohol, 1-pcnmole %, preferably not less than 75 mole % of reduced
taitol, 2-pentanol, 3-penlanol, 2-methyl-l -butanol, isopentyl
coenzyme Q10 among the entire coenzvmes Q,„ is obtained
fl C0'° ‘ tert;pfn,y.1. alc°M.- 3-methyl-2-butanol, neopentyl fio
Tbus-obtninedextractcontainingreducedcoaizymeQmis
“j1 aud ,hc hbc' P^r^rly preferred are methanol,
optionally purified by column ebromatooraphy redudton
2-nronZiPr0pan
2-proPa,10)" and »«< prererred 15
ireatment or the like and then subjected tp^tallizalion to
Hie amounts of the above-mentioned hydrophilic oiganic

tally, alsbinriiis1^caTeTserieTonZtmenZepsare prefer

solvent and hydrophobic organic solvent to be nsed are not 65 ably carried out under “live condition that reduced
particularly limited. But preferably, as the concentration at
Q10 is protected from an oxidation reaction” mentioned
the tunc ofextraction, thchydrophilic organic solvent isused
above.

SA12

12 of 19

KAN-CDCAL-240416

US 7,910,340 B2
17

18

In the present invention, Oxidized coenzyme Q10 can be
produced by oxidizing the above-mentioned microbial cells
or disrupted product thereof and then extracting oxidized
coenzyme Q10 by an otganic solvent, or extracting reduced
coenzyme Q)0 irom the microbial cells or disrupted product ithereof by an organic solvent, purifying optionally and oxi­
dizing the resultant to oxidized coenzyme Q10.
The above-mentioned oxidation may be carried out by, for
example, mixingreducedcoenzymeQIn(preferabiyanaqueottS suspension of the microbial cells or disnipted product 10
thereofcontaining reduced coenzynte QI0, au extract contain­
ing reducedCoenzyme QJ0orthe like) with an oxidizing agent
(e.g. mahganese dioxide or the like) and then, for example,
oxidizing the mixture at room temperature (e.g. 30° C.) for
not less than 30 minutes. In the case where the microbial cells 15
or disnipted product thereof are oxidized, the extraction
operation ofoxidized coenzynie Q,;,’can be carried out in the
same manner as the above-mentioned extraction operation of
reduced coenzyme Q10. Thereby, oxidized coenzyme Q, 0 can
be efficiently recovered, Incidentally, it is not necessary to 2l'
carry out tile recovery of oxidized coenzyme Q10 under “the
condition that reduced coenzyme Qw is protected from an
oxidation reaction", which is recommended for the recovery
ofreduced coenzynie Ql0 and thereeovery maybe carried out
in consideration of general safe operation and the like. The 25
thus-obtained oxidized coenzynie Ql0 may be optionally
purified by column chromatography or the like, and, finally
by conducting crystallization operation, high-purity oxidized
coenzyme Q10 crystals may be obtained.

The results are shown in Tables 1 to 3. The ratio of reduced
coenzyme Qin means a mole percentage value of the ratio of
reduced.coenzymeQ10relativelothetolalofoxidizedcoenzymeQJ0 and reduced coenzyme Q10 on the basis ofthe areas
of the. peaks of reduced coenzyme Q,;, and oxidized eoenzym« Q10 and the ratio of the mole absotption coefficients
thereof (1:7.5).

30

BRIEF DESCRIPTION OF THE DRAWINGS

TABLE 1

Strain name
Agrobacteriunt utmcfacit'nce IFO 13263
4grobaaciium radiohaaer ATCC 4718 •
Aspergillus clawtus JCM 1718
Accwbactcr xylinum IFO15237
Aminabocter uguuouensis JCM 7854
Agromonas cligatrophica JCM 1494
Acidiphilium mulm'oivm JCM 8867
Bttllcrqmyccs dibits 1FQ 1192
BuUcrfi armeniaca IFO' 10112
Brcvimdimonas dimimita JCM 2788

.FIG. 1 shows a. schematic diagram of a countercurrent
3-step continuous extraction apparatus used in Example 8.

Cnprococciis InurvmU IFO 0609
35

BEST MODE FOR CARRYING OUT THE
INVENTION

Chioupsphaera apob'asidialis CBS 7430
Candida cunvla ATCC 10567
Ceiinostenis lutcoalbus JCM 2923

The following examples illustrate the present invention in
further detail. These examples are. however, by no means 49
limitative of the scope of the present invention.

ExiSophiala alcafophila JCM 12519
Exaha.sidiuni gracile IFO 7 788
FeUomycesfuzhotieusis IFO 10374

Example 1

Upper stand:
.Ratio of reduced
coenzyme Q10(%)
Lower stand:
Production amount
of reduced coeiizyirie
Q10 (pg-’m!)

FihbasidieUa ueofamans CBS 132
Various coenzyme Q10-producing microorganisms shown 45
in the following Tables I to 3 were cultured with shaking
FUobasidt urn capsuloigcntm. CBS 1906
(amplitude: 2 cm, 310 reciprocalion/min) at 25° C. for 72
Geoirichum capitaium JCM 6258
hours in 10 rnL ofculture media [(glucose: 20 g, peptone: 5 g,
yeast extract: 3 g, malt extract: 3, g)/L, pH: 6.0) using test
Graphiola cylmefrica IFO 6426
tubes (inner diameter: 21 ram, entirelength: 200 nun), andthe so
obtained broth were optionally concentrated. Under a nitro­
Gluconobacter subcxydatis IFO 3257
gen atmosphere, in the concomitant presence of 3 parts by
volume of isopropanol and 18 .5 pans by volume of n-hexatle
Kockowella impcratde JCM 7826
relative to 10 parts by volume of the broth, the obtained
solutions were vigorously shaken for 3 minutes using 10 parts 55
by volume of glass beads (425 to 600 pm) to carry out cell
disniptioh and extraction. The obtained hexane phases were
TABLE 2
evaporated (at 40° C.j under reduced pressure and analyzed
by high performance liquid chromatography (HPLC), to
determine the ratio and the production amount of reduced 60
coenzyme QJ0.
HPLC conditions
Column: YMC-Pack 4.6x250 mm (manufactured by YMC..
Strain name
Co., Ltd.)
Mobile phase: methanol/n-hexane=85/l 5
^ Kiutrma/iomces Mctaitvi 1VO 10118
Flow rate: 1 mL/min
Detection: UV 275 urn

82
7
7S
7
83
2
77
2
70
3
75
2
73
3
72
2
.85
7
82
5
79
6
71
2
743
79
5
77
3
79
2
70
2
88
2
82
3
77
3
75
4
86
6
78
2

Upper stand:
Ratio of reduced
cocozyme QlO (%)
Lower stand:
Production amount
of reduced coenzynie
Q10 (uo/int)
79
2'

13 of 19

SA13
KAN-CDCAL-240417

US 7,910,340 B2
19

20

TABLE 2-continued

TABLE 3-contiiiued

Upper stand:
Ratio of reduced
coenzyme Q30(%)
Lower stand:
Production amount
of deduced cocnzynn?
Q10 (piv'ml)

Strain name
Lalatia cehisi CI3S 275,28
Uiicospoiidium scoriii IFO 1212
Cegiouvlla aitiso JCM 7573
Mc/hyhbaamum cxtoignax JCM2802
MyCvpiqm wmosa JCM 7822
Oaspodditm nimganu/critn: CB.S253J
Pseudomonas dcmtrificans JAM12023
Pseudomonas shuytXifliensis 1AM 11392
■Psatevma ophidis CBS 517.23
Paracoccas dcmirijicam JCM .6892
Pclftmivesallianeus IFO 7538
Jikodotontlq ytinwh WO 1125
lUtadoiorah manna IFO 03S7
Rkodespaiidium didbovasum ATCC1830
Jihitpnmas subc/jfaciem IFO 15212

75
2
88
6
73
3
12
2
-80
2
76
2
85
S
84
6
79
5
S3
5
72
2
79
7
74
.8
86
4
822

Upper stand:
Ratio offeduced
co.enzymc.QlO (%)
Lower stand:
Production amount
ofreduccd coenzyme
Q10 (jig-'ml)

5

Strain name
7bphaiina-caciHlcsceta-CpBS.35l.2S'
10.
Tremelia mcSeiitcrica ATCC 24438
Dichaspnran cutaneum 010 1198
TillcihvU) anomala CBS-436.72
.15

TtUena carbs JCM 1761
TolvpospoHnm buildium JCM 2006
WU'tiopsh unskbnonesis CBS 544

20 UsiUciga estiilcuta IFO 98S7
Udmiomyces ritegnbsporus JC’M 5269
Xanthopftihmyccs dcndrorlious IFO 10129
25 Ximihahar.ia fia mv JGM1 '204
Paedtemyccsplaanus ATCClOJ 14
Acixnnoniitm chrysoganm ATC£'l 1550

Rhodopsendomoins pah/snis JCM2524
Rhoihbuvicr capsahtus SB 1003
Spowbofomyces kohatlais IF61034
Sporabolamyccsparamscus IFO 0471
Sporidiobohts johr.soiiii IFO 1840
SaitoeUo complicate! IFO 10748

Strain name

Sphiagomotm pampaucimobUis IFO 15100
SjtomtrifJttim ccUulophiUum ATCC 20493
Sympodiomycopsis papfuopcdflUCM.&l '8
Stcrigmatpsporiditim polymorphtm IFO 10121
Sidiingopwiias adhesive JCM 7370

*1
2
89
3
$5
8
75
4
SO
3
73
4
76
2
78
2
87
2
84
2
80
2
80
5
75

I

in

2
74
2
90
6
?S
6
72
9
93

33

S
J

Example 2

$

73
7
97
9

Upper suuid:
Ratio of reduced
coenzyme Q10 (%)
Lower stand:
Production amount
of reduced cocnzyme
•QiO
90
8
78
7
73
6
80
6
72
2
SO
3

l

l

3
■8S

Rhizobiupi tnelihti ATCC9930

TABLE 3

Schizusaccharamyces ffom/ic IFO 0347

f

30 Hytihomonas hirsddana ATCC33S86

so

RhodMion onetus JCM 9337
Rkodopfanes elegans JCM9224

f

ShodotondaghtHnis IF6l 125 was aerobically cultured at
25° C. for 48 hours lit a culture medium {peptone: 5 a. yeast
.40 extract: 3 g, malt extract: 3 g, glucose: 20 g/L, pH: 60). The
cells after the culture were collected by centrifugation and
suspended in a phosphoric acid buffer solution at pH 7 to
which N-methyl-N'-nitro-N-hitrosoguanidiiie have been
added so as to have its concentration of 200 pg/mL. After
45 maintaining diesbhitiofl at 25° C. for 1 hour, the cells were
washed for 5 times with a 0.9% NiiCl solution and further
suspended in a 0.9% NnCl solution. The obtained cell sus­
pension was properly diluted and a colony was to be formed
on an agar plate ofihe above-mentioned culture mediuni. Tlie
•sn production amount andtheratiq ofreduced coenzyme Q10 in
The isolated mutant strain were determined in the same manncr as Exanlple 1. The strains having higher production
amount and the ratio of reduced cpeiizymeQ,q as compared
with those of wild strains was further mulaled.repeaiediy, As.
53 the result, by repeating the mutagenesis for 10 times, mutant
strains with productivity of not less llian 15 pg/mL were
obtained. In this case, the ratio of reduced coenzyme Q,n W0S
not less Than 80 mole %,
9
60

Example 3

SaitocUa complicate, IFO 107.48 was aerobically cultured
^ .
or ^ hours in 10 Lofaculture medium (peptone:
✓
3 s-mal1 e^wet: 3 g, glucose: 20 g/L. pH;
65 6.0). the obtained cells were disrupted for 2 times at 80 MPa
of disrup tion pressure by a pressure homogenizer {manufac­
tured by Lanni Co.) sealed with nitrogen gas to obtain a

SA14

1

14 of 19

i
j

KAN-CDCAL-240418

US 7,910.340 B2
21

22

cell-disrupted solution. The cell-disrupted solution was subjected to extraction with 30 parts by volume of isopropanol
.and 40 parts by volume of hexane for 3 times .to obtain an
extract. The'extraction ratio was 99%. Tbe rat.o of reduced
coenzymc QI0 was 97 mole W.
3

tonc: 5 g. yeast cxiract: 3 g. malt extract: 3 g. glucose: 20 g/L.
pH: 6.0). The obtained ceiis were disrupted for 2 times at 80
MPa of disruption pressure by a pressure bomogenizer
(main,facrarcd by Lanai Co.) sealed with nitrogen gas to
oblai), a cell-disrapted solution. The ratio of reducJcoen-

zyme Q, 0 in the cell-disrupted solution was 97% relative to
the entire coenzymes Q10 including oxidized coenzyme Q]n.
When mutant strains of Rhodoioruta gluiiais 1FOU2.5
200 niL of the cell-disrupted solution was mixed with isoprowere'aerobically cultured at 25° C. in 10 L of a culture
panol and n-hcxanc at the ratios shown inthe first extraction
medium (peptone: 10 g. yeast extract: 5 g, malt extract: 3 g, 10 section in the following Table 4 so as to adjust ihe'iotalsolvent
glucose: 20 g/L, pH: 6.0). glucose was fed at the rate of 4 g/h
amount to be 500 mL and the mixtures were stirred at 40° C.
ihSJapse
'lours 10 i101'rs l**18l,IC0Se ahl0l,n1:
for 30 minutes to carrv out the first extraction. After compleExample 4

n:d,i:-d lomvmeQ,,

,e!! it, 80 mold %

I:

*nd

“fl«r l»c» wm tollMed. 7 lit

volume ratios of the lower layers (residues) relative to the
total solution amounts were defined as indexes of separability
Example 5
and shown as the interface positions in Table 4.
Thccxtractobiainedin Example 3 was subjected to solvent
Furthermore, in order to carry out the second extraction,
substitution with a hexane solution, the resultant was 20 the solvent concentrations of the residual layers were meaadso/bed in a column filled with silica gel and subjected to
Sl|red and isopropanol and hexane were fiirfher added so as to
development and elution by a solution of n-hexane/dielhyl
keepthe solvent ratios in the entire solutions be the ratios
ether (9/1) to obtain a fraction containing reduced cocnzymc
shown in the second extraction section in Table 4. The rcsultQ,„. Furthermore, (he fraction was cooled to2°C. with stiring solutions were stirred at 40° C. for 30minutes. Then, the
ring to obtain a white slurry. All the above-mentioned opera- 25 solutions were kept standing for 10 minutes and the upper
lions were carried out in a ni trogen atmosphere. The obtained
layers were collected in the same maimer as described above
slurry was filtered trader reduced pressure, the resulting wet
to determine the solvent concentrations of the residual layers,
ctystals were washed with die development solution same as
Isopropanoi and hexane were added thereto so as to keep the
used above (die temperature of the solvent used for washing
solvent ratios in the entire solutions be the ratios shown in the
was 2° C), and the wet crystals were dried under reduced an third extraction section in Table 4, and the solutions were
stirred at 25° C. for 30 minutes to carry out the third extrac­
pressure (20 to 40° C., 1 to 30 mmHg) to obtain 81 mg of
tion.
white diy crystals. The purity of die obtained crystals was
99.9% and the ratio ofreduced coenzyme Qlu was 90 mole %.
The ratios of ihe amounts of reduced coenzyme Q,0 conta ined in the collected upper layers ofeach ofthe first, second
Example 6
35 and third steps relative 1o the amount of reduced coenzyme
Q10 contained in the cell-disrupted solution or the extraction
The extract obtained in Example 3 was subjected to solvent
residue before die extraction were defined as die extraction
substitution with n-hexane, the resultant was added with 50
ratios of reduced coenzyme Q,0 in the respective steps. The
mg of manganese dioxide, and the mixture was stirred at 30°
calculation results are shown in Table 4. The integrated
C. for 30 minutes. Thus-obtained reaction solution was Sac-. 40 extraction ratios of reduced coenzyme Q,n in the second and
donated and purified ih the same manner as Exnmplo 5 to
third extraction steps arc also shown, In any steps, the Static
•obtain 74 mg of high-purity oxidized coenzyme Q10.
Separability was excellent and the integrated extraction ratio
in die ease where extraction was repealed for 3 limes was as
Example 7
high as not less than 90% to show high recovery ratio. Par45 Ocularly, in the case where die isopropanol concentration was
Sailoella complicate 1FO 10748 was aerobically cultured
adjusted to be not less dian 30%, the recovery' ratio was as
at 25° C. for 72 hours in 500 niL of a culture medium (pephigh as not less dian 99%.
TABLli 4
Extraction ratio (%)

Case!

Case?

C.tsc3

Cnse4

.First
Second.
Bird
First
Second
Third
First
Second
Third
First
Second
Third

Solvent ratio (vol %)

interface

Respective
extraction

Isopropanol

Hexane

position

ratio

ratio

18.8
19:0
29.7
31.3
•37.7
40.6
31.3
34.1
36.8
31.3
34.1
42.4

52.7
52/4
41.7
40.2
33.7
30.9
40.2
37.3
34.6
40.2
373
29.0

0.492
0.624
0.645
0.499
0,549
0.565
0.526
0.553
-0.555
0.536
0,553
0.644

73.6
47.6
55.5

73.6
86.2
93.8
90.7
98.5
99.1
89.0
98.3
99.1
89.0
98.3
99.0

83.7
40.1
89.0
•85.8
46.6
89.0.
85.8
50.0

Integrated
extraction

15 of 19

SA15
KAN-CDCAL-240419

US 7,910,340 B2

23

24

TABLE 4-continued
Extraction ratio r°/^

Case5

Cased

First
Second.
Third
First
Second
Third

Respective
extraction

Integrated
extraction

Solvent ratio fvoi %V

Interface

Isopropanoi’

Hexane

position-

ratio

ratio

40.2

0.526
0.595
0.593
0.526
0,595
0.663

89.0
88.1
45.3
89.0

89!o
98.6
99.1
89.0
98.6
99X>

31.3
40.1
40.7
31,3
40.1
45.8

3.1.4
30.7
40.2
31.4
25.7

sr;i

40.7

15

^
SaitoeUa complicate* IFO 10748 was aerobically cultured
at 25 C. for 72 hours in 750L ofa culturenjedium (peptone*
cm
extJ?c!: 3 &
extract: 3 g, glucose: 20 e/L. pH:
6.0); Theobtamedcells weredismptedfor2timesat MOMPti 2U
of disruption pressure by a pressure homogenizer (manufacrMl>by ,Llni
Sf-!ed Wkh ni,r°sen gas to obtain a
cdW.Hnptod.rolut.pn. The cell-dismpted solution was sub-

a carbon source, a nitrogen source, a phosphorus source
3 ^cronmrieil{ t0 obtain microbial cells containing
reduced c°enzymeQ10at a ratio oi'not less than 70 mole
.. /o amonS the entire coenzyiues Q10)
disruPting themicrobial cells to obtain reduced coenzynie
Qioi and
oxidizing thus-obtained reduced coenzyme O to oxi
dized coenzyme Ol6 and then eSna the

“;rii“=SiSS“S* ,

separation tank was 200 L. The cell-disrupted solution was
supplied to the first stirring tank and isopropanol and n-hexane were supplied to respective steps. The supply amount of
the cell-disrupted solution was 2 L/rnin and the supply
amounts of isopropanol and n-hexane were adjusted to be 1.3 ’

~-

2; The Process accordmg to claim 1,
"herein the extraction of the oxidized Ooenzyme Q10 is
„ 5?rr ■ 01,1 ^
a hydrophilic organic solvent.
3' '^process according to claim 1,
"'herein the extraction of the oxidized coenzvme O is

and the n-hexane concentration of 75 to 65 v/v % were w-At 55
.. ^
according to claim 4. wherein the oxidizing
The extraction temperature was 40o^C^andVtire'treatSnt
»
d-*de.
duration was 6 hours. At the point after the lapse of 6 bouts.
The.process according to claim 1, wherein the oxidized
die recovery, ratio of reduced coenzyme Q10 extracted from
C'v5~t“e ^10 lS extn,cted by a continuous extraction,
the cell-disrupted solution was calculated on the basis of
7‘ ^ process accordicg !o claim 6, wherein the coatinureduced coenzyme Q10 remaining in the extraction residue in 40 °us extajPdon is a countercurrent multistage extraction
ratio*nf-oAtL
th®third
fo fa* *e recovery
*• The Process according to claim 1, wherein the reduced
HnL,i9b,9/!: • * $ at-c
was well carried out
coenzyme Q10 upon disrupting has a ratio of not less than 70

~ - -—

INDUSTRIAL APPLICABILITY

According to the processes of the present invention
reduced epenzynre QJ0 can be produced cheaply on the indus^
trial scale by considerably simple steps comprisina culturing
mtcroorganisms and recovering reduced coenzyme Q]0. In
simp!eprocesses^ C0CnZyme QlD can also be produced by

skwskSsgmss!

45 tcc'clfrom M 0Xldall0« reaction.
y. I he process according to claim 1, wherein the inert gas
an“°sPhere co«iprtses nitrogen gas.
\0' ^P101*55 according to claim 1, wherein the culture
ined,l,ra » at least 750 L.
n- A process for producing on an industrial scale the
oxidized coenzyme Q10 represented by the following for-

The invention claimed is:
X. A process for producing on an industrial scale the oxi- 55
dized e.oefizyme Ql0 represented bv the following formula:

Q

Oil
ch3o.

.CHj
II

CH.O*
OH

which comprises culturing reduced coenzyme Ql0-producing microorganisms in a cuimre medium containing

ucromittient to obtain microbial cells containing

1

l>

SA16

16 of 19

KAN-CDCAL-240420

Ii

US 7,910,340 B2
25

26

rcduccd cocnzyme Q, „ at a ratio ofnot less than 70 mole
28. The process according to claim 27, wherein the con­
tinuous extraction is a countercurrent multistage extraction.
% among the entire coenzymes Ql0,
29. The process according to claim 22, wherein the sealed
extracting die reduced cocnzyme Q10 by an organic solvent
tank is scaled under an inert gas atmosphere.
under an inert gas atmosphere, and
30. The process according to claim 29, wherein die inert
oxidizing the extracted reduced coenzyme Ql0 to oxidized 5
gas atmosphere comprises nitrogen gas.
coenzyme Q10.
31. The process according to claim 22. wherein the Culture
12. The process according to claim 11.
medium is'at least 750 L.wherein the extraction of the reduced coemyrae Ql0 is
32. The process according to claim 22, wherein die reduced
carried out by using a hydrophilic organic solvent.
coenzvme Q10ttpon disrupting has a ratio of not less than 70
13. Tlie process according to claim 11,
10 mole % among the entire coenzymes Q,0 when measured
wherein die extraction of die reduced cocnzyme Q10 is
under the condition that the reduced coenzyme Q,e is pro­
tected from an oxidation reaction.
carried out by using a hydrophobic organic solvent,
33. A process for producing on an industrial scale the
14. The process according to claim 11, further comprising
oxidized coenzyme Q10 represented by the following forthe step of disrupting the microbial cells.
15. The process according to claim 11, wherein the reduced
mula:
cocnzyme Q10 is oxidized with an oxidizing agent.
16. The process according to claim 15, wherein the oxidiz­
ing agent is manganese dioxide.
17. The process according to claim 11, whereih the reduced
cocnzyme Q,0 is extracted by a continuous extraction.
18. The. process according to claim 17. wherein the con' tinuous extraction is a countercurrent multistage extraction'.
19. The process according to claim 11, wherein the reduced
coenzyme Q10 upon extracting has a ratio of not less than 70
mole % among the entire coenzymes Q10 when measured 25
under die condition that the reduced cocnzyme Q,0 is pro­
which’ comprises culftiring reduced coenzyme QJ0-protected from an oxidation reaction.
ducing microorganisms in a culture medium containing
20. The process according to claim li, w-herein the inert
a carbon source, a nitrogen source, a phosphorus source
gas atmosphere comprises nitrogen gas.
and a micronutrient to obtain microbial cells containing
21. The process according to claim 11, wherein the culture 3))
reduced coenzyme Q)0 at a ratio of not less than 70mole
medium is at least 750 L.
% among the entire coenzymes Q10,
22. A process for producing on an industrial scale the
oxidized cocnzyme Qj0 represented by the following for­
extracting the reduced coenzyme Q10 by an oreanic solvent
mula:
in a sealed tank, and
oxidizing the extracted reduced cocnzyme Q10 to oxidized
35
cocnzyme Qi0.
34. Hie process according to claim 33,
wherein the extraction of reduced cocnzyme Q,„ is carried
out by using a hydrophilic organic solvent.
35. Tile process according to claim 33,
wherein the extraction of the reduced cocnzyme QJ0 is
.carried out by using a hydrophobic organic solvent.
36. The process accordmg to claim 33, further comprising
disrupting the microbial cells.
37. Theprocess according to claim 33, wherein the reduced
which 'comprises culturing reduced cocnzyme Q10-f>ro- 45
coenzyme Q10 is oxidized with an oxidizing agent.
ducing microorganisms in a culture medium containing
38. The process according to claim 37. wherein the oxidiz­
a carbpji source, a nitrogen source, a phosphorus source
ing agent is manganese dioxide.
and a micronatrient to obtain microbial cells containing
39. Theprocess according tocIaim 33, wherein the reduced
reduced cocnzymcQ10 at a ratio ofnot less than 70molc
coenzyme Q10 is extracted by a continuous extraction.
% among the entire coenzymes Q,0,
disrupting the microbial cells to obtain reduced coenzyme. 50 40. The process according to claim 39, wherein the con­
tinuous extraction is a countercurrent multistage extraction.
Qio; and,
41. The process according to claim 33, wherein the sealed
oxidizing thus-obtained reduced coenzyme Q10 to oxi­
tank is sealed under a deoxygenized aunospherc.
dized coenzyme Q]0 and then extracting the oxidized
cocnzyme Q10 by an organic solvent in a sealed tank.
42. The process according to claim 41, wherein the deoxy23. The process according to claim 22,
55 genized atmosphere comprises inert gas.
wherein the extraction of the oxidized coenzyme QJ0 is
43. The process according to claim 41, wherein the deoxy­
carried Out by using a hydrophilic organic solvent!
genized atmosphere comprises nitrogen gas.
24. The process accordmg to claim 22,
44. The process according to claim 33, w-herein die culture
wherein the extraction of the oxidized coenzyme Q10 is
medium is at least 750 L.
carried out by using a hydrophobic organic solvent.
co 45. The process according to claim 33. wherein the reduced
25. The process accordingto claim 22, wherein the reduced
coenzyme Q10 upon extracting has a ratio of not less than 70
cocnzyme Q10 is oxidized with an oxidizing agent.
mole % among the entire coenzymes Q,0 when measured
26. Theprocess according 1o claim 25, wherein the oxidiz­
under the Condition that the reduced coenzyme Qin is pro­
ing agent is manganese dioxide.
tected from an oxidation reaction.
27. Tlie process'according to claim 22, wherein the oxi­
dized coenzvme Q10 is extracted by a continuous extraction.
■*

17 of 19

SA17
KAN-CDCAL-240421

i

i
■

I

UNITED STATES PATENT AND TRADEMARK OFFICE

CERTIFICATE OF CORRECTION
PATENT NO.
APPLICATION NO.
DATED
INVENTORY)

: 7,910,340 B2
: 11/981181
: March 22,2011
: Kazuyoshi Yajima et'al.

Page 1 of2
5
1

It is certified that error appears in the above-identified patent and that said Letters Patent is hereby corrected as shown below:

In column 1. line 6:
Change “si"* to -is~

*4
i
:

i
?

In claim 1. column 23'. lines 57-65
Change

£

OH

ch3

CH30.

I!

ch3o
<c

io

H

OH

!
1
■f
{

to

I

i
9

Signed and Sealed this
Thirty-first Day of May, 2011

m
jA

7

?

%
7r:-

Yi

BavidJ. Kappos
Directorofthe United States Patent and Trademark Office

18 of 19

SA18
KAN-CDCAL-240422

Page 2 of2

CERTIFICATE OF CORRECTION (continued)
U.S. Pat. No. 7,910,340 B2

Q

m

ch3o

CH30'

m e
o

19 of 19

SA19

KAN-CDCAL-240423

IN THE UNITED STATES PATENT AND TRADEMARK OFFICE
In re the Application of: Kazuyoshi YAJIMA et al.

Art Unit: 1657

Application Number: 11/981,181

Examiner: VeraAfremova

Filed: October 31,2007
For:

Confirmation Number: 7514

PROCESSES FOR PRODUCING COENZYME Q10
Attorney Docket Number:
Customer Number:

100462A
38834

RESPONSE TO RESTRICTION and SPECIES REQUIREMENTS
Commissioner for Patents
P.O. Box 1450
Alexandria, VA 22313-1450

April 19,2010

Sir:
This paper is submitted in response to the Office Action dated March 22 ,2010.
In the Office Action, restriction is required between Group I (Claims 77-102) and Group
II (Claims 103-109).
Applicants hereby elect the subject matter of Group II (Claims 103-109) for prosecution
in this application. In addition, applicant elects Species Agrobacterium without traverse.

Claims

i

103-109 read on the elected species. Applicant’s rights to the filing of a divisional application
directed to the non-elected subject matter under 35 U.S.C. §120and35 U.S.C. §121 are retained.

!

1

:

SA20

Application No. 11/981,181
Art Unit: 1657

Response to Restriction and Species Requirements
Attorney Docket No. 100462 A

If this paper is not timely filed, Applicants respectfully petition for an appropriate
extension of time. The fees for such an extension or any other fees that may be due with respect
to this paper may be charged to Deposit Account No. 50-2866.
Respectfully submitted,
Westerman, Hattori, Daniels & Adrian, LLP
/Stephen G. Adrian/

Stephen G. Adrian
Attorney for Applicants
Registration No. 32,878
Telephone: (202) 822-1100
Facsimile: (202) 822-1111
SGA/arf

-2-

SA21

!

j| United States Patent and Trademark Office
UNITED STATES DEPARTMENT OF COMMERCE
United States Patent and Trademark Office
Address: COMMISSIONER FOR PATENTS
P.O. Box 1450
Alexandria, Virginia 22313-1450
www.uspto.gov

P

APPLICATION NO.

FILING DATE

FIRST NAMED INVENTOR

ATTORNEY DOCKET NO.

11/981,181

10/31/2007

Kazuyoshi Yajima

5404/191

30678

7590

03/22/2010

CONFIRMATION NO.
7514
I
i

EXAMINER

CONNOLLY BOVE LODGE & HUTZ LLP
1875 EYE STREET, N.W.
SUITE 1100
WASHINGTON, DC 20006

AFREMOVA, VERAART UNIT

PAPER NUMBER

s

1657

MAIL DATE

DELIVERY MODE

03/22/2010

PAPER

Please find below and/or attached an Office communication concerning this application or proceeding.
I

The time period for reply, if any, is set in the attached communication.

!I
?

SA22
PTOL-90A (Rev. 04/07)

!

Application No.

Applicant(s)
YAJIMA ET AL.

11/981,181

Office Action Summary

Examiner

Art Unit

Vera Afremova
1657
— The MAILING DATE of this communication appears on the cover sheet with the correspondence address Period for Reply

A SHORTENED STATUTORY PERIOD FOR REPLY IS SET TO EXPIRE 1 MONTH(S) OR THIRTY (30) DAYS,
WHICHEVER IS LONGER, FROM THE MAILING DATE OF THIS COMMUNICATION.
- Extensions of time may be available under the provisions of 37 CFR 1.136(a). In no event, however, may a reply be timely filed
after SIX (6) MONTHS from the mailing date of this communication.
- If NO period for reply is specified above, the maximum statutory period will apply and will expire SIX (6) MONTHS from the mailing date of this communication.
- Failure to reply within the set or extended period for reply will, by statute, cause the application to become ABANDONED (35 U.S.C. § 133).
Any reply received by the Office later than three months after the mailing date of this communication, even if timely filed, may reduce any
earned patent term adjustment. See 37 CFR 1.704(b).

Status
1 )£x[| Responsive to communication(s) filed on 01 November 2007.
2a)□ This action is FINAL.

2b)D This action is non-final.

3)D Since this application is in condition for allowance except for formal matters, prosecution as to the merits is
closed in accordance with the practice under Ex parte Quayle, 1935 C.D. 11,453 O.G. 213.
Disposition of Claims
4)^3 Claim(s) 77-109 is/are pending in the application.
4a) Of the above claim(s)

is/are withdrawn from consideration.

5)D Claim(s)

is/are allowed.

6)D Claim(s)

is/are rejected,

7)D Claim(s)

is/are objected to.

8)EEH Claim(s) 77-109 are subject to restriction and/or election requirement.
Application Papers
9)CH The specification is objected to by the Examiner.
10)D The drawing(s) filed on

is/are: a)D accepted or b)Q objected to by the Examiner.

Applicant may not request that any objection to the drawing(s) be held in abeyance. See 37 CFR 1.85(a).
Replacement drawing sheet(s) including the correction is required if the drawing(s) is objected to. See 37 CFR 1.121(d).
11)0 The oath or declaration is objected to by the Examiner. Note the attached Office Action or form PTO-152.
Priority under 35 U.S.C. § 119
12)0 Acknowledgment is made of a claim for foreign priority under 35 U.S.C. § 119(a)-(d) or (f).
a)[U All

b)n Some * c)D None of:

1 .□ Certified copies of the priority documents have been received.
20 Certified copies of the priority documents have been received in Application No._____ .
30 Copies of the certified copies of the priority documents have been received in this National Stage
application from the International Bureau (PCT Rule 17.2(a)).
* See the attached detailed Office action for a list of the certified copies not received.

Attachment(s)
1) O Notice of References Cited (PTO-892)
2) O Notice of Draftsperson’s Patent Drawing Review (PTO-948)

4) O Interview Summary (PTO-413)
Paper No(s)/Mail Date._____ .

3) Q Information Disclosure Statement(s) (PTO/SB/08)
Paper No(s)/Mail Date_____ .

6) Q Other:____ .

U.S. Patent and Trademark Office
PTOL-326 (Rev. 08-06)

5) Q Notice of Informal Patent Application

Office Action Summary

SA23

Part of Paper No./Mail Date 20100303

i!

Application/Control Number: 11/981,181
Art Unit: 1657

Page 2

/
l

DETAILED ACTION
Claims 77-109 are pending and subject to restriction requirement.
Restrictions
Restriction to one of the following inventions is required under 35 U.S.C. 121:
I.

Claims 77-102, drawn to a process for producing reduced coenzyme Q10,
classified in class 435, subclass 156, for example.

II.

Claims 103-109, drawn to a process for producing oxidized coenzyme Q10,

>!

classified in class 435, subclass 156, for example.

;

The inventions are distinct, each from the other because of the following reasons:
Inventions I and II are unrelated. Inventions are unrelated if it can be shown that they are
not disclosed as capable of use together and they have different designs, modes of operatioh, and

!!

effects (MPEP § 802.01 and § 806.06). In the instant case, the different inventions are directed
to two processes that do not share process steps or end points.

i

Restriction for examination purposes as indicated is proper because all these inventions
listed in this action are independent or distinct for the reasons given above and there would be a
serious search and examination burden if restriction were not required because one or more of
the following reasons apply:
(a) the inventions have acquired a separate status in the art in view of their different
classification;
(b) the inventions have acquired a separate status in the art due to their recognized
divergent subject matter;

SA24

t
i

i

Application/Control Number: 11/981,181
Art Unit: 1657

Page 3

(c) the inventions require a different field of search (for example, searching different
classes/subclasses or electronic resources, or employing different search queries);
(d) the prior art applicable to one invention would not likely be applicable to another
invention;
(e) the inventions are likely to raise different non-prior art issues under 35 U.S.C. 101
and/or 35 U.S.C. 112, first paragraph.
Applicant is advised that the reply to this requirement to be complete must include
(i) an election of a invention to be examined even though the requirement may be traversed (37
CFR 1.143) and (ii) identification of the claims encompassing the elected invention.
The election of an invention may be made with or without traverse. To reserve a right to
petition, the election must be made with traverse. If the reply does not distinctly and specifically
point out supposed errors in the restriction requirement, the election shall be treated as an
election without traverse. Traversal must be presented at the time of election in order to be
-=■— - -considered timely. Failure to timely traverse the requirement will result in the loss of right to
petition under 37 CFR 1.144. If claims are added after the election, applicant must indicate
which of these claims are readable on the elected invention.
If claims are added after the election, applicant must indicate which of these claims are
readable upon the elected invention.
Should applicant traverse on the ground that the inventions are not patentably distinct,
applicant should submit evidence or identify such evidence now of record showing the
inventions to be obvious variants or clearly admit on the record that this is the case. In either

SA25

Application/Control Number: 11/981,181
Art Unit: 1657

Page 4

instance, if the examiner finds one of the inventions unpatentable over the prior art, the evidence
or admission may be used in a rejection under 35 U.S.C. 103(a) of the other invention.
Election ofspecies
This application contains claims directed to the following patentably distinct species that
are microorganisms of claim 88 and of claim 109. The species are independent or distinct
because claims to the different species recite the mutually exclusive characteristics of such
species that are biologically distinct microorganisms. In addition, these biological species are not
obvious variants of each other based on the current record.
Applicant is required under 35 U.S.C. 121 to elect a single disclosed species (one
microbial group or genus of claim 88 or claim 109) for prosecution on the merits to which the
claims shall be restricted if no generic claim is finally held to be allowable. Currently, claims 187 and 89-108 are generic with regard to the microbial species/genus.
There is an examination and search burden for these patentably distinct species due to
their mutually exclusive characteristics. The species require a different field of search (e.g.,
searching different classes/subclasses or electronic resources, or employing different search
queries); and/or the prior art applicable to one species would not likely be applicable to another
species; and/or the species are likely to raise different non-prior art issues under 35 U.S.C. 101
and/or 35 U.S.C. 112, first paragraph.
Applicant is advised that the reply to this requirement to be complete must include
(i) an election of a species to be examined even though the requirement may be traversed (37
CFR 1143) and (ii) identification of the claims encompassing the elected species, including

SA26

Application/Control Number: 11/981,181
Art Unit: 1657

Page 5

any claims subsequently added. An argument that a claim is allowable or that all claims are
generic is considered nonresponsive unless accompanied by an election.
The election of the species may be made with or without traverse. To preserve a right to
petition, the election must be made with traverse. If the reply does not distinctly and specifically
point out supposed errors in the election of species requirement, the election shall be treated as
an election without traverse. Traversal must be presented at the time of election in order to be
considered timely. Failure to timely traverse the requirement will result in the loss of right to
petition under 37 CFR 1.144. If claims are added after the election, applicant must indicate
which of these claims are readable on the elected species.
Should applicant traverse on the ground that the species are not patentably distinct,
applicant should submit evidence or identify such evidence now of record showing the species to
be obvious variants or clearly admit on the record that this is the case. In either instance, if the
examiner finds one of the species unpatentable over the prior art, the evidence or admission may
be used in a rejection under 35 U.S.C. 103(a) of the other species.
Upon the allowance of a generic claim, applicant will be entitled to consideration of
claims to additional species which depend from or otherwise require all the limitations of an
allowable generic claim as provided by 37 CFR 1.141.
Applicant is reminded that upon the cancellation of claims to a non-elected invention, the
inventorship must be amended in compliance with 37 CFR 1.48(b) if one or more of the
currently named inventors is no longer an inventor of at least one claim remaining in the
application. Any amendment of inventorship must be accompanied by a request under 37 CFR
1.48(b) and by the fee required under 37 CFR 1.17(i).

SA27

Application/Control Number: 11/981,181
Art Unit: 1657

Page 6

Any inquiry concerning this communication or earlier communications from the

!.

examiner should be directed to Vera Afremova whose telephone number is (571) 272-0914. The
examiner can normally be reached from Monday to Friday from 9.30 am to 6.00 pm.
If attempts to reach the examiner by telephone are unsuccessful, the examiner’s
supervisor, Jon P. Weber, can be reached at (571) 272-0925.
The fax phone number for the TC 1600 where this application or proceeding is assigned
is (571) 273-8300.
Any inquiry of a general nature or relating to the status of this application or proceeding
should be directed to the Technology center 1600, telephone number is (571) 272-1600.
Vera Afremova
March 3, 2010
/Vera Afremova/
Primary Examiner, Art Unit 1657

SA28

5

